No. ____________

In the
SUPREME COURT OF THE UNITED STATES
____________________
CERTAIN UNDERWRITERS AT LLOYD’S, LONDON
Subscribing to Insurance Policy Numbers SS0002114/2730
and SS0002115/2566, Unknown Persons or Business Entities
of Unknown Residence,

Petitioners,

v.
BRIGHTON COLLECTIBLES, LLC, a Delaware Limited
Liability Company,
___________________________

Respondent.

On Petition for Writ of Certiorari to the United States Court
of Appeals for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI
PAUL K. SCHRIEFFER, ESQ.
pks@pksllp.com
*TAMI KAY LEE, ESQ.
tkl@pksllp.com
P.K. SCHRIEFFER LLP
100 N. Barranca Street
Suite 1100
West Covina, California 91791
Telephone: (626) 373-2444
Facsimile: (626) 974-8403
*Counsel of Record

Attorneys for Petitioners

i

QUESTIONS PRESENTED
This Court’s supervisory power is called upon as to:
1.

Whether the Ninth Circuit violated federalism, abstention, and
comity by creating new law when it refused to follow California’s
precedence establishing there can be no actionable claim with
recoverable civil damages for invasion of privacy under the

Song-Beverly Credit Card Act (Civil Code §1747.08)?
2.

Whether

the

Ninth

Circuit

violated

insurers/Petitioners’

substantive due process rights when it refused to follow its own
intra-circuit precedence--and California’s--in finding the Song-

Beverly Credit Card Act (Civil Code §1747.08) can provide for
actionable invasion of privacy when it reversed the lower court’s
order regarding no duty to defend by insurers/Petitioners?
3.

Whether the Ninth Circuit’s refusal to certify questions to
determine

if

California’s

Song-Beverly

Credit

Card

Act

proscribes against “publication” of customer data and provides
for “civil damages” violated Petitioners’ substantive due process
rights in light of suggestion in footnote of its memorandum
answers could have impacted its decision in reversing the lower
court’s order establishing Petitioners have no duty to defend
under their insurance policy?

ii

PARTIES TO THE PROCEEDING
AND RULE 29.6 STATEMENT
All parties to the proceedings are listed in the caption.
Pursuant to Rule 29.6 of this Court’s Rules, petitioner CERTAIN
INTERESTED UNDERWRITERS subscribing to insurance policy
numbers

SS0002114/2730

and

SS0002115/2566

state

that

the

following listed parties may have a pecuniary interest in the outcome
of this case. These representations are made to enable the Court to
evaluate possible disqualification or recusal.
PARTY

CONNECTION/INTEREST

Certain Underwriters -MS Amblin PLC

MS&AD Insurance Group Holdings,

Syndicate 2001 at

Inc. (100%)

Lloyd’s London
XL Catlin Syndicate

XL Group Limited (100%)

2003 at Lloyd’s, London
Chaucer Syndicates Ltd.

China Reinsurance Corporation

1084 at Lloyd’s London

(China Re) (100%)

Liberty Syndicate 4472

Liberty Mutual Holdings Company

at Lloyd’s, London

(100%)

iii
TABLE OF CONTENTS
QUESTIONS PRESENTED……..……………………………………………i
PARTIES TO THE PROCEEDINGS
AND RULE 29.6 STATEMENT…………………………..……………..ii
TABLE OF AUTHORITIES…………………………………………………vi
OPINIONS BELOW……………………………………………...……………1
JURISDICTION……………………………………………………......………2
CONSTITUTIONAL PROVISIONS………………………………………...2
STATUTORY PROVISIONS AND CALIFORNIA
CASES INVOLVED..…………………...….……………......…………….2
INTRODUCTION……………………………………………………………..3
STATEMENT OF THE CASE…………………………………………….…6
A. Background………………………………………………………….…6
B. Ninth Circuit’s Memorandum of Decision………………………....9
REASONS FOR GRANTING THE PETITION…………………………12
A.

Review is Needed to Determine whether the Ninth
Circuit Violated Federalism, Abstention, and Comity
When it Created New Law Recognizing Actionable
Statutory Invasion of Privacy Under California’s Credit
Card Act in the Absence of Recoverable Civil Damages
Under the Act………………………………………………….....13

B.

Petitioners’ Due Process Rights were Violated When the
Ninth Circuit Refused to Certify Questions to California
About Whether the Credit Card Act Provides for Civil
Damages and Proscribes Against Publication of Customer
Data…………………………………………………………….….17

CONCLUSION………………………………………………………………21

iv
APPENDIX
Orders/Opinions
Appendix A
Order denying Respondents’ Petition for Panel and En
Banc Rehearing, United States Court of Appeals for the
Ninth Circuit, Brighton Collectibles, LLC v. Certain
Underwriters At Lloyds of London , Case No. 18-56403
(April 24,
2020)..........................................................................App-1
Appendix B
United States Court of Appeals for the Ninth Circuit’s
court docket referring to Text Clerk Order (Docket
Entry No. 44) denying Respondents’ Motion for
Certification to the California Supreme Court, Brighton

Collectibles, LLC v. Certain Underwriters At Lloyds of
London , Case No. 18-56403 (April 24,

2020)…………………………………………………….APP-2
Appendix C
Memorandum of Opinion, United States Court of
Appeals for the Ninth Circuit, Brighton Collectibles,
LLC v. Certain Underwriters At Lloyds of London,
Case No. 18-56403, 798 Fed.Appx. 144 (March 16,
2020).…………..........................................................APP-8
Appendix D
Order granting Motion for Summary Judgment,

Brighton Collectibles, LLC, v. Certain Underwriters At
Lloyds of London, Case No. CV 18-1107 United States
District Court Central District of California (September
27, 2018), 2018 WL
9782167…………………….……...…………………..APP-10

Constitutional Provisions, Statutes and Rules Involved
Appendix E
15 U.S.C.A. § 1012 Regulation by State law; Federal law
relating specifically to insurance; applicability of certain
Federal laws after June 30, 1948………...............APP-16
Appendix F

v
28 U.S.C.A. § 1254 Courts of appeals; certiorari;
certified questions; 28 U.S.C.A. § 1652 State laws as
rules of decision………………………....…………..APP-17
Appendix G
Federal Rules of Civil Procedure Rule 56 Summary
Judgment ……………………………………………..APP-19
Appendix H

Big 5 Sporting Goods Corporation v. Zurich American
Insurance Co. 635 Fed.Appx. 351 (9th Cir.
2015)……….…… …………...….…………………….APP-28

Appendix I

Jessica Pineda v. Williams–Sonoma Stores, Inc. 51
Cal.4th 524
(2011)………………………………………………..…APP-31
Appendix J

Folgelstrom v. Lamps Plus, Inc., 195 Cal.App.4th 986
(2011)……….……………………….......................…APP-47

Appendix K
Cal.Civ.Code § 1747.08 Personal identification
information; prohibition upon collection of data upon
credit card transaction form; exemptions; civil penalties
and injunctive
relief……………………….…………...………………APP-54
Appendix L
Cal. Rules of Court, Rule 8.536
Rehearing………………….……...……………….…APP-57

vi
TABLE OF AUTHORITIES
Page(s)
FEDERAL CASES
U. S. Supreme Court Cases

Arizonans for Official English v. Arizona,
520 U.S. 43 (1997)…………………………..….……….13, 14, 17

City of Houston v. Hill, 482 U.S. 451, (1987)………………………..17
Erie R. Co. v. Tompkins, 304 U.S. 64 (1938)…………………….….16
Lehman Brothers v. Schein,
416 U.S. 386 (1974)………………………………...……………….14, 15
Ninth Circuit Court of Appeals Cases

Big 5 Sporting Goods Corporation v. Zurich American Insurance
Co.
635 Fed.Appx.351 (9th Cir. 2015)……..……3. 4, 7, 8, 9, 10, 19

Kremen v. Cohen, 325 F.3d 1035 (9thCir. 2003)..…...…....14, 15, 20
L.A. Lakers, Inc. v. Federal Insurance Co.,
869 F.3d 795 (9th Cir. 2017)…………………………….….10, 11

Parents Involved in Community Schools v. Seattle Sch. Dist,
294 F.3d 1085 (9th Cir. 2002)………………………..…………14
CALIFORNIA CASES

Folgelstrom v. Lamps Plus, Inc.,
195 Cal.App.4th 986 (2011)………………..……..3, 8, 16, 17, 18

Hill v. National Collegiate Athletic Ass’n,
7 Cal.4th 1 (1994)…………………………….………….…………8

Los Angeles Alliance for Survival v. City of Los Angeles,
22 Cal. 4th 352 (2000)………………………………………14, 15

vii

Pineda v. Williams-Sonoma Stores, Inc.,
51 Cal.4th 524 (2011)…………………...………..3, 9, 16, 17, 18

Venoco v. Gulf Underwriters Ins. Co.,
175 Cal.App.4th 750 (2009)………………………………………7

Montrose Chem. Corp. v. Sup.Ct.,
6 Cal.4th 287 (1993)…………………………………….....………9
FEDERAL STATUTES & RULES
15 U.S.C. §1012(a)………………………………………..……………....2
28 U.S.C. §1254(1)………………………………………………………..2
28 U.S.C. § 1652……………………..…………………………..………..2
47 U.S.C. §227(b)(3)(B)…………………………………...………..10, 11
Fed. R. Civ. Proc. 56……..…………………………………………….…2
Fed. R. Civ. Proc. 56(c)……..………………………………..………..…2
Fed. R. Civ. Proc. 56(e)……………………………..………………….…2
STATE STATUTES & RULES
Cal. Civ. Code § §1747.08…………..…1, 3, 4, 5, 6, 7, 8, 9, 10, 11, 12,
13, 15, 16, 17, 18, 19, 21
Cal. Rules of Court, Rule 8.536………………………..………………..3
TREATISES
1 Barry R. Ostrager & Thomas R. Newman,

Handbook on Insurance Coverage Disputes § 5.02,
at 204 (12th ed.
2004)…………………………………………………………………..…..16

1

Certain Underwriters at Lloyd’s, London Subscribing To
Insurance Policy Numbers SS0002114/2730 and SS0002115/2566
(“Underwriters”) respectfully petition for writ of certiorari to review
the judgment of the United States Court of Appeals for the Ninth
Circuit.
OPINIONS BELOW
Certain Underwriters at Lloyd’s, London’s timely petition for
Ninth Circuit and en banc rehearing was denied by the Ninth Circuit
on April 24, 2020. Appendix A [Dkt. 43].
Certain Underwriters at Lloyd’s, London’s motion to certify
state law questions involving California’s Song-Beverly Credit Card
Act, Civil Code §1747.08 was denied on April 24, 2020. Appendix B,
[Dkt. 44].
The Ninth Circuit court of appeals Memorandum on reversal,
remand, and entry of Judgment in favor of Brighton Collectibles, LLC
was issued on March 16, 2020 and reported at 798 Fed.Appx. 144
(2020). Appendix C [Dkt 38-1].
The Fed. Rules of Civil Procedure, Rule 56 disposition of the
Central District Court, California granting Certain Underwriters’ at

2
Lloyd’s, London’s summary judgment on September 27, 2018 reported
at 2018 WL 9782167. Appendix D.
JURISDICTION
The United States Court of Appeals for the Ninth Circuit’s
Order denying Certain Underwriters at Lloyd’s, London’s Petition for
Ninth Circuit and en banc rehearing was denied on April 24, 2020.
This petition for writ of certiorari is timely filed within 150 days of
that date pursuant to this Court’s March 19, 2020 order involving
ongoing concerns as to restrictions imposed by the COVID-19
pandemic, Order List: 589 U.S.
This Court has jurisdiction pursuant to 28 U.S.C. §1254(1).
CONSTITUTIONAL PROVISIONS
U.S. Const. Amend. V provides, in relevant part:
“No person shall … be deprived of life, liberty, or property,
without due process of law; nor shall private property be
taken for public use, without just compensation.”
STATUTORY PROVISIONS AND
CALIFORNIA CASES INVOLVED
This petition involves statutes, cases, and rules reprinted at
App. E through L as follows:
15 U.S.C. §1012(a).
28 U.S.C. §§ 1254(1), 1652.
FRCP, Rule 56(c), (e).

3

Big 5 Sporting Goods Corporation v. Zurich American Insurance Co.
635 Fed.Appx.351 (9th Cir. 2015).

Pineda v. Williams-Sonoma Stores, Inc., 51 Cal.4th 524 (2011).
Folgelstrom v. Lamps Plus, Inc., 195 Cal.App.4th 986 (2011).
Cal. Civil Code §1747.08.
Cal. Rules of Court, Rule 8.536.
INTRODUCTION
The Ninth Circuit failed to follow established California law
and therefore made new law in violation of federalism, abstention, and
comity when it reversed Petitioners Certain Underwriters at Lloyd’s,
London’s (“Underwriters”) summary judgment as to retailer Brighton
Collectibles, Inc. involving Underwriters’ defense obligations of
otherwise unrecognized invasion of privacy claims arising out of mere
statutory violation of the Song–Beverly Credit Card Act under
California Civil Code §1747.08 (“Song-Beverly”; “The Credit Card Act”;
“The Act”).
In evaluating whether Underwriters have a duty to defend
within the terms and conditions provided under their policy, the Ninth
Circuit inquired whether a customer could pursue “no harm” civil
claims for invasion of privacy under California’s Song-Beverly Credit
Card Act based on the merchant’s mere collection and recording of a
customer’s personal identifying information during a credit card

4
transaction and simply because the intended purpose of the Credit
Card Act is to protect consumer privacy.

If California has never

recognized an actionable claim for invasion of privacy, there can be no
defense obligation owed within the terms of Underwriters’ policy for
Brighton’s statutory violation of the Credit Card Act arising out of
Brighton’s collection practices of customer data.
Rather than certifying questions to California involving whether
the Song-Beverly Credit Card Act can provide for recoverable civil
damages in order to support actionable invasion of privacy claims, the
Ninth Circuit chose to create new law in contravention of California’s
highest court, including the Ninth Circuit’s own prior decision in Big 5

Sporting Goods Corporation v. Zurich American Insurance Co. 635
Fed.Appx. 351 (9th Cir. 2015), establishing there can be no actionable
claims for invasion of privacy based on the merchant’s mere collection
of the customer’s identifying information.
As a consequence of the Ninth’s Circuit’s dereliction from
California law and its intra-circuit decision in Big 5, floodgates of “no
harm” litigation for invasion of privacy involving California’s Credit
Card Act will rapidly widen in diversity cases and financially impact
all merchants alike, including and most notably Respondent Brighton
Collectibles.

5
Petitioners’ due process rights were also violated when the
Ninth Circuit refused to follow its own precedence in Big 5 and when it
chose to ignore California law regarding no actionable statutory
invasion of privacy can exist under the Credit Card act. Petitioners’
due process rights were further violated when the Ninth Circuit
refused to certify questions to California involving whether the Credit
Card act could provide for civil damages and whether the Act
proscribes against “publication” of the customer’s personal information
--- both of which the Ninth Circuit suggested in footnote of its
memorandum may very be indispensible elements in Underwriters’
policy wording and its decision in finding whether Petitioners have a
defense obligation to Brighton Collectibles.
The Ninth Circuit was required to certify state law questions
relating to concerns it raised in footnote 1 of its memorandum (App. C,
fn 1) which demonstrated it questioned the merits of its decision in
finding actionable invasion of privacy under the California Credit Card
Act in the absence of express statutory language also providing for
recovery of civil damages, and whether the statute included
proscribing against publication of the customer’s information as part of
the prohibited act involving collection of the customer’s data.

The

Ninth Circuit’s refusal supports this Court’s review under this Court’s
supervisory power whether violation of federalism, abstention, and

6
comity including Underwriters’ due process rights has occurred.
STATEMENT OF THE CASE
A.

Background

On October 19, 2018, Respondent Brighton Collectibles, LLC,
(“Brighton”) appealed the California Central District Court’s order
granting Petitioners, Certain Underwriters at Lloyd’s, London’s
(“Underwriters”) summary judgment on the grounds that the
underlying Lida Yeheskel class action lawsuit, which presented a
single cause of action for violation of the Song-Beverly Credit Card
Act under California Civil Code §1747.08 (“the Credit Card Act” or
“Act”),

sufficiently alleged an “[o]ral or written publication of

material that violates a person’s right of privacy” within the meaning
of

Underwriters’ insuring clauses for advertising and/or personal

injury cover.
If no actionable claim can exist for “violation” of a person’s right
of privacy concurrent with a mere infraction of the Song-Beverly
Credit Card Act, then Petitioners’ insuring clause has not been met as
a threshold matter for “personal or advertising injury” cover because
the insuring clause requires “[o]ral or written publication of material

that violates a person’s right of privacy”. Moreover, if the Credit Card
Act was intended to proscribe only the merchant’s conduct involving

7
“collection” of the information and not the later “publication”, then the
Ninth Circuit misapprehended Petitioner’s duty to defend an alleged
offense that simply does not exist under the wording of the subject
insuring clause for personal or advertising injury cover (“collection” is
not referenced in the insuring agreement, but rather “publication” is).
In Big 5 Sporting Goods v. Zurich, 635 Fed.Appx. 351, 353
(2015), the Ninth Circuit stated “the duty to defend groundless actions
applies only to claims covered by the policy”, citing Venoco v. Gulf

Underwriters Ins. Co., 175 Cal.App.4th 750, 765 (2009).
Further, the Ninth Circuit stated in Big 5:
“We conclude that in garden variety ZIP Code cases like these, such
extra Song-Beverly Act privacy claims simply do not exist. We have
scoured the legal landscape searching for precedents supporting Big
5’s assertions, but we have come up empty. To the contrary, the
authority shedding light on this issue points conclusively in the
other direction: California does not recognize any common law or
constitutional privacy right causes of action for requesting, sending,
transmitting, communicating, distributing, or commercially using
ZIP Codes. The only possible claim is for statutory penalties, not
damages.”

Big 5 Sporting Goods at 354. [Emphasis added].

If California’s common law refuses to recognize any actionable
claim for invasion of privacy arising out of mere violation of The Song-

Beverly Credit Card Act, how can the Ninth Circuit create such
recognition statutorily? And particularly when the Act contains no

8
language providing for recovery of actual damages?
The Ninth Circuit in Big 5 Sporting Goods v. Zurich, 635
Fed.Appx. 351 (2015) primarily relied on Folgelstrom v. Lamps Plus,

Inc., 195 Cal.App.4th 986 (2d Dist.2011) stating:
“Folgelstrom...a ZIP Code marketing case, illuminates our
conclusion that the privacy rights asserted by Big 5 do not exist.
In that case, the plaintiff alleged an invasion of his common law
and constitutional rights to privacy. The Court of Appeal held
that “the conduct of which plaintiff complains does not constitute
a ‘serious’ invasion of privacy.” Id. at 992.. The court reasoned
that “[a]ctionable invasions of privacy must be sufficiently
serious in their nature, scope, and actual or potential impact to
constitute an egregious breach of the social norms underlying the
privacy right.” Id. (quoting Hill v. National Collegiate Athletic
Ass’n, 7 Cal.4th, 1, 37 (1994)…). The court said that “[Lamps
Plus’] conduct is not an egregious breach of social norms, but
routine commercial behavior.” Id. As the Supreme Court of
California observed in Hill, “[n]o community could function if
every intrusion into the realm of private action, no matter how
slight or trivial, gave rise to a cause of action for invasion of
privacy.”

Big 5 Sporting Goods at 354.
If California confirms that invasion of privacy claims do not exist
from a mere infraction of the Credit Card Act, then Petitioners’ duty to
defend cannot be triggered for an unrecognized and non-existent risk
involved in the Act since a claim for infraction by itself would not also
mean conduct “that violates a person’s right of privacy”, wording that
must be met in the subject insuring clause for personal injury cover.
“An insurer has no duty to defend when ‘the underlying claim cannot
come within the policy coverage by virtue of the scope of the insuring

9
clause’…” Big 5 Sporting Goods v. Zurich, 635 Fed.Appx. 351, 353 (9th
cir. 2015) citing Montrose Chem. Corp. v. Sup.Ct., 6 Cal.4th 287, 301
(1993).
B.

Ninth Circuit’s Memorandum of Decision

The Ninth Circuit issued its Memorandum reversing the lower
court’s order stating:
“Because the California Supreme Court has made clear that the
Credit Card Act’s ‘overriding purpose’ is likewise to ‘protect the
personal privacy of consumers’, Pineda v. Williams-Sonoma
Stores, Inc., 246 P.3d 612, 619 (Cal. 2011) (quotation marks and
citation omitted), we conclude that Yeheskel’s Credit Card Act
claim alleges an invasion of privacy sufficient to trigger Lloyd’s
duty to defend.”
P.1, Memorandum, attached to Appendix C. [Emphasis
added].
The Ninth Circuit pointed out in footnote 1 of its Memorandum
that it need not decide whether the underlying Yeheskel action also
alleges an “advertising injury” because the Ninth Circuit already
determined “personal injury” cover was sufficiently alleged based on
an invasion of privacy claim imputed in the Credit Card Act itself
since the purpose behind the Credit Card Act was to “protect privacy”
interests in customer information. Without this imputed assertion of
actionable invasion of privacy under the Credit Card Act (contrary to
California law and inconsistent with this Court’s prior decision), as
noted, Brighton’s demand for cover would not be within the insuring

10
clause for “[o]ral or written publication of material that violates a
person’s right of privacy”.
The Ninth Circuit further suggested in footnote 1 of its
Memorandum

the

problematic

issue

of

whether

recovery

of

enumerated civil penalties allowed under the Act also meant the same
as recovery of “damages” involved in an invasion of privacy claim.
Also in footnote 1, the Ninth Circuit suggested the added concern
about whether the Credit Card Act proscribes only the collection of
customer information, and not the subsequent “publication” which if it
does not, a claim for violation of the Song-Beverly Credit Card Act
could not be covered offense under the subject insuring clause for
personal injury due to absence of a prohibited act involving
publication.
The Ninth Circuit’s overbroad conclusion regarding the Credit
Card Act’s goal to proscribe against invasion of privacy and therefore
recognize actionable claims therefrom based on collection of a
customer’s personal identifying information (which is inconsistent
with California law and its own prior decision in Big 5) was relied on
one cited inapposite case, L.A. Lakers, Inc. v. Federal Insurance Co.,
869 F.3d 795 (9th Cir. 2017). The Ninth Circuit broadly concluded
because the Telephone Consumer Protection Act (“TCPA”) involved in

11

L.A. Lakers provided protection from invasion of privacy, a claim
under the TCPA “is inherently an invasion of privacy claim” and,
therefore, so is a claim for violation of the Song-Beverly Credit Card
Act because Song-Beverly also sought to protect privacy interests.
However, the TCPA is an entirely different statute than Song-Beverly
because the TCPA protects a different species of privacy interest in
the sense of “seclusion” and contains a provision allowing a private
right of action for invasion of privacy with recovery of statutory
penalties or actual damages which, in sharp contrast, Song-Beverly
Credit Card Act does not have. See, TCPA 47 U.S.C. §227(b)(3)(B)
contrast with Civil Code §1747.08.
Unless the Ninth Circuit can predict whether California will
uphold a claim for statutory invasion of personal privacy under the

Song-Beverly Credit Card Act in light of numerous California cases
finding it absurd to do so at common law, the Ninth Circuit must seek
answers from the California Supreme Court as to whether the Credit
Card Act can provide for civil damages but the Ninth Circuit refused
and, therefore, violated federalism, abstention, comity, and notably
Petitioners’ substantive due process rights.

Claims for statutory

invasion of personal privacy under the Credit Card Act , if found
actionable, will open floodgates for unreasonable “no harm” litigation
involving information a customer may freely provide in the first

12
instance with no evidence of the merchant’s later misuse (such as Ms.
Yeheskel’s lawsuit against Brighton).
REASONS FOR GRANTING THE PETITION
This Court should intervene with its supervisory power to
prohibit the practice endorsed by the court below in the creation of new
law not expressly identified in California’s Song-Beverly Credit Card
Act nor provided by California law because the substantive due process
violation is clearly presented, recurring, and of great importance to all
insurers alike including (ironically) the merchant/ Respondent,
Brighton Collectibles, Inc. Merchants like Brighton will face meritless
“no harm” claims for invasion of privacy under California’s Song-

Beverly Credit Card Act based on mere collection practices or
information that was voluntarily provided to begin with.
Further, the Ninth Circuit, by rejecting certification of state law
questions involving whether California’s Credit Card Act prohibits
publication of customer data and provides for civil damages beyond
penalties, has crafted new statutory law for a previously unrecognized
cause of action for invasion of privacy and improperly predicted
availability of civil remedies which have far departed from the spirit
of comity and federalism calling for an exercise of this Court’s
supervisory powers. Moreover, Petitioners’ substantive due process
rights were further deprived when the Ninth Circuit refused to certify

13
these questions to California which resulted in the Ninth Circuit’s
creation of new actionable rights for credit card customers that did not
previously exist and for which Petitioners would not have otherwise
been required to provide a defense under their insurance policy.
A. Review is Needed to Determine whether the Ninth Circuit
Violated Federalism, Abstention, and Comity When it
Created New Law Recognizing Actionable Statutory Invasion
of Privacy Under California’s Credit Card Act in the Absence
of Recoverable Civil Damages under the Act.
This Court’s precedents against a federal court’s interference
with state substantive law are well established. “No clause in the
Constitution” purports to confer power upon the federal courts “to
declare substantive rules of common law applicable in a state.” Erie R.

Co. v. Tompkins, 58 S. Ct. 817, at 822 (1938). Under this rule, federal
courts may apply but not declare state law which is what occurred here
with new substantive rights created by the Ninth Circuit involving
actionable “no harm” claims for invasion of privacy under California’s

Song-Beverly Credit Card Act.
In order to animate this fundamental tenet of federalism, the
federal courts, when faced with an important and unsettled question of
state law, are encouraged to certify that issue to the implicated state’s
supreme court. Arizonans for Official English v. Arizona, 520 U.S. 43,

14
48, 62, 76-79 (1997) (“Federal courts lack competence to rule
definitively on the meaning of state legislation”); Lehman Brothers v.

Schein, 416 U.S. 386, 391 (1974) (noting certification “in the long run
save[s] time, energy, and resources and helps build a cooperative
judicial federalism”).
For its part, the California Supreme Court has noted the
certification

procedure

(i)

allows

federal

courts

to

avoid

mischaracterizations of state law, which might result in misleading
other state and federal courts until the state supreme court “finally” in
other litigation corrects the error; (ii) strengthens the primacy of the
state supreme court in interpreting state law by giving it the first
opportunity to conclusively decide an issue; (iii) avoids conflicts
between federal and state courts; and (iv) protects the sovereignty of
state courts. Los Angeles Alliance for Survival v. City of Los Angeles,
22 Cal. 4th 352, 360-61 (2000).
After Arizonans, the Ninth Circuit acknowledged that it had “an
obligation to consider whether novel state-law questions should be
certified - and we have been admonished in the past for failing to do
so.’ ” Kremen v. Cohen, 325 F.3d 1035, 1037-38 (9th Cir. 2003), citing

Parents Involved in Community Schools v. Seattle Sch. Dist., 294 F.3d
1085, 1086 (9th Cir. 2002). The Ninth Circuit accordingly certifies
state-law questions “that present significant issues, including those

15
with important public policy ramifications, and that have not yet been
resolved by state courts.” Kremen, 325 F.3d at 1038 (noting that when
a case “raises a new and substantial issue of state law in an arena that
will have broad application, the spirit of comity and federalism cause
us to seek certification”). Moreover, following this Court’s ruling in

Lehman Brothers, 416 U.S. at 391, that certification is appropriate
when state law is unclear, even where no constitutional issue is raised,
the Ninth Circuit has specifically found that certification is
appropriate whether or not the issue was of constitutional significance.
Here, the Ninth Circuit’s newly fashioned substantive right for
actionable invasion of privacy under the Credit Card Act will
significantly affect litigation in California by promoting forum
shopping---much to Respondent Brighton’s detriment---because the
Ninth Circuit’s memorandum of decision will have at least persuasive
effect for district courts in California while the state courts must follow
existing California law which does not recognize statutory invasion of
privacy claims under Song-Beverly. See Los Angeles Alliance for

Survival v. City of Los Angeles, 22 Cal.4th 352, 360 (2000) (noting
concern that a lenient Ninth Circuit ruling on California law would
cause cases to be filed in federal rather than state court, thereby
depriving state courts of a case in which they could address the issue).
This is exactly the kind of result that this Court sought to prevent in

16

Erie R. Co. v. Tompkins, 304 U.S. 64 (1938). This Court’s guidance is
needed to confirm the extent to which the Ninth Circuit is free to
disregard existing state-law authorities as in Pineda v. Williams-

Sonoma Stores, Inc., 51 Cal.4th 524 (2011) or Folgelstrom v. Lamps
Plus, Inc., 195 Cal.App.4th 986 (2011) both of which refused to
recognize claims for invasion of privacy even though the acknowledged
purpose behind the Credit Card Act is to “protect privacy rights” of
consumers.
Because California does not recognize actionable invasion of
privacy claims based on mere violation of its Credit Card Act, there
would be no legal basis that Petitioners might eventually be obligated
to indemnify Respondent Brighton Collectibles.

It is hornbook law

that an insurer’s duty to defend its policyholder is broader than its
duty to indemnify, and “that an insurer has a duty to defend a claim
against its insured unless it can establish ‘as a matter of law, that
there is no possible factual or legal basis on which [the insurer] might
eventually be obligated to indemnify [the] insured under any policy
provision.’ ” 1 Barry R. Ostrager & Thomas R. Newman, Handbook on

Insurance Coverage Disputes § 5.02, at 204 (12th ed. 2004) (“Handbook
on Insurance Coverage”) (citation omitted). [Emphasis added].
Indeed, federalism, abstention, and comity have been cast aside
to find coverage where none exists as an initial matter involving the

17
Petitioners’ subject insuring clause based on the underlying lead class
plaintiff Lida Yeheskel’s sole cause of action for violation of the Song-

Beverly Credit Card Act which, on its face, only proscribes against a
merchant’s collection practices and only provides for civil penalties and
does not make any reference to the act of publication, or as providing
for recovery of civil damages, but which the Ninth Circuit improperly
and very likely incorrectly predicted without California’s guidance.
B. Petitioners’ Due Process Rights were Violated When

the

Ninth Circuit Refused to Certify Questions to California
About Whether the Credit Card Act Provides for Civil
Damages and Proscribes Against Publication of Customer
Data.
Certification today covers territory once dominated by a deferral device
called “Pullman abstention” and can be raised at any time before the state’s
highest court answers the certified question. Arizonans, at 75-76; see also,

City of Houston v. Hill, 482 U.S. 451, (1987).
During oral argument, the Ninth Circuit panel repeatedly
wrestled with itself and questioned whether the Song-Beverly Credit
Card Act could possibly intend to provide for recoverable civil damages
involving statutory “invasion of privacy” claims which California’s
highest courts, as noted, in Pineda v. Williams-Sonoma Stores, Inc., 51
Cal.4th 524 (2011) and Folgelstrom v. Lamps Plus, Inc.,

195

18
Cal.App.4th 986 (2011) have already rejected including, as noted, the
Ninth Circuit’s own prior decision in Big 5 because “such extra SongBeverly Act privacy claims simply do not exist.”

Big 5 at APP-29;

App. H.
The California Supreme Court in Pineda v. Williams-Sonoma

Stores refused to recognize a private right of action in relation to a
claim of violation of the Song-Beverly Act by the mere collection of
personal identifying data or subsequent distribution of the information
in a customer list even though the Supreme Court expressly stated (in
dicta) that it recognized the overriding purpose of the Act was to
“protect the personal privacy of consumers who pay for transactions
with credit cards."

Id at 534.

This was demonstrated when the

Supreme Court in Pineda expressly disclaimed review of the lower
court’s order sustaining the merchant’s demurrer to the customer’s
claim for invasion of privacy thereby tacitly reaffirming its view that
violation of the Song-Beverly Act did not also create an actionable
invasion of privacy claim when “nothing more” exists to suggest a
serious invasion. Id at 528. It is unclear how the Ninth Circuit was
able to interpret Pineda’s refusal to review the lower court’s order
sustaining the merchant’s demurrer on the common law invasion of
privacy claim to also mean Pineda defined the Act to confer statutory
rights to sue for invasion of privacy.

19
Therefore, the Ninth Circuit panel should have sought approval
from California to deem the Act provides for actionable invasion of
privacy and to interpret the Act includes conduct involving publication
and recoverable damages beyond civil penalties.

Refusal to do so

violated Petitioners’ substantive due process rights.
Moreover, just because the stated purpose of the Song-Beverly
Credit Card Act was to “protect the personal privacy of consumers”,
this does not mean an infraction of the Credit Card Act also means an

invasion of the person’s privacy rights since California (and the Ninth
Circuit in its own prior decision in Big 5) already loudly and clearly
spoke about this issue. Looking past these cases and in violation of
federalism, abstention, and comity the Ninth Circuit viewed differently
and created new state law by concluding that: “Yeheskel’s Credit Card
claim alleges an invasion of privacy sufficient to trigger Lloyd’s duty to
defend.” APP-8 of Memorandum App.C.
As affirmed in footnote 1 of the Memorandum, the Ninth Circuit
panel wondered ---and stated was disinclined to find because the issues
were not before it but went ahead and took a position in any event
without seeking approval from California--- whether the Credit Card
Act has the element of publication in order for there to be a violation to
meet the distinct elements of Petitioners’ insuring clause for “personal

20
injury” cover requiring “[o]ral or written publication of material that
violates a person’s right of privacy”. [Emphasis added].
If statutory invasion of privacy can be a recognized claim under
the Act (by incorporating a claim of “publication” where none exists in
the Act) what can possibly be recoverable damages when the Act
clearly provides for civil penalties only? The Ninth Circuit panel also
expressed deep concerns about this during oral argument but
disregarded an obligation to seek answers from California and, rather,
made statutory findings contrary to California common law (i.e., new
statutory law) by failing to certify questions to California and in order
to support its conclusions of a duty to defend within the meaning of
Petitioners/Underwriters’ insuring clause.
The Ninth Circuit panel’s decision to reject certification of state
law questions was inconsistent with another panel’s decision in

Kremen v. Cohen, 325 F.3d 1035 (9th Cir. 2003). There appears to be no
uniformity within the Ninth Circuit as to when to certify state law
questions. The inquiry when to certify state law questions involves
exceptional importance as it relates to the spirit of comity and
federalism. Resolution of this issue has nationwide application as it
may affect every diversity case.

21
CONCLUSION
For the reasons set forth herein, a writ of certiorari should issue
to review the decision of the United States Court of Appeals for the
Ninth Circuit and, ultimately, to vacate and reverse the memorandum
decision below in favor of Underwriters’ or, alternatively, order
certification to the California Supreme Court the questions whether
the Credit Card Act includes proscribing publication of customer data
and provides for civil damages for invasion of privacy which are
indispensable elements in determining Petitioners’ duty to defend the
underlying sole claim for violation of the Credit Card Act by Ms.
Yeheskel against Brighton.
September 21, 2020

Respectfully submitted,
PAUL K. SCHRIEFFER, ESQ.
pks@pksllp.com
*TAMI KAY LEE, ESQ.
tkl@pksllp.com
P.K. SCHRIEFFER LLP
100 N. Barranca Street
Suite 1100
West Covina, California 91791
Telephone: (626) 373-2444
Facsimile: (626) 974-8403

Counsel of Record

Attorneys for Petitioners

APPENDICES

(2 of 2)
Case: 18-56403, 04/24/2020, ID: 11670650, DktEntry: 43, Page 1 of 1
APPENDIX A

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
APR 24 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

BRIGHTON COLLECTIBLES, LLC, a
Delaware Limited Liability Company,
Plaintiff-Appellant,
v.
CERTAIN UNDERWRITERS AT
LLOYD’S LONDON, Subscribing To
Insurance Policy Numbers SS0002114/2730
AND SS0002115/2566 unknown persons or
business entities of unknown residence,

No.

18-56403

D.C. No.
2:18-cv-01107-JFW-GJS
Central District of California,
Los Angeles
ORDER

Defendant-Appellee.
Before: HURWITZ and FRIEDLAND, Circuit Judges, and KORMAN,* District
Judge.
The panel has unanimously voted to deny Defendant-Appellee’s petition for
panel rehearing. Judges Hurwitz and Friedland have voted to deny the petition for
rehearing en banc, and Judge Korman so recommends. The full court has been
advised of the petition for rehearing en banc, and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35.
The petitions for panel rehearing and rehearing en banc are DENIED.

*

The Honorable Edward R. Korman, United States District Judge for
the Eastern District of New York, sitting by designation.

APP-1

APPENDIX B

General Docket
United States Court of Appeals for the Ninth Circuit
Court of Appeals Docket #: 18-56403
Nature of Suit: 4190 Other Contract Actions
Brighton Collectibles, LLC v. Certain Underwriters at Lloyds
Appeal From: U.S. District Court for Central California, Los Angeles
Fee Status: Paid

Docketed: 10/22/2018
Termed: 03/16/2020

Case Type Information:
1) civil
2) private
3) null
Originating Court Information:
District: 0973-2 : 2:18-cv-01107-JFW-GJS
Trial Judge: John F. Walter, District Judge
Date Filed: 02/08/2018
Date Order/Judgment:
Date Order/Judgment EOD:
10/04/2018
10/04/2018
Prior Cases:
15-56867

Date Filed: 12/04/2015

Date Disposed: 01/08/2018

Date NOA Filed:
10/19/2018

Date Rec'd COA:
10/19/2018

Disposition: Reversed, Vacated, Remanded - Memorandum

Current Cases:
None

BRIGHTON COLLECTIBLES, LLC, a Delaware Limited Liability
Company
Plaintiff - Appellant,

Charles Avrith, Esquire, Senior Litigation Counsel
Direct: 310-274-7100
[COR NTC Retained]
Browne George Ross LLP
2121 Avenue of the Stars
Suite 2800
Los Angeles, CA 90067
Eric M. George, Esquire, Attorney
[COR NTC Retained]
Browne George Ross LLP
2121 Avenue of the Stars
Suite 2800
Los Angeles, CA 90067
Peter Wayne Ross, Esquire, Attorney
Direct: 310-274-7100
[COR NTC Retained]
Browne George Ross LLP
2121 Avenue of the Stars
Suite 2800
Los Angeles, CA 90067

v.
CERTAIN UNDERWRITERS AT LLOYD'S LONDON, Subscribing
To Insurance Policy Numbers SS0002114/2730 AND
SS0002115/2566 unknown persons or business entities of
unknown residence
Defendant - Appellee,

Tami Kay Lee, Attorney
Direct: 626-373-2444
[COR NTC Retained]
P.K. Schrieffer LLP
100 N. Baranca Avenue
Suite 1100
West Covina, CA 91791

APP-2

APPENDIX B

BRIGHTON COLLECTIBLES, LLC, a Delaware Limited Liability Company,
Plaintiff - Appellant,
v.

CERTAIN UNDERWRITERS AT LLOYD'S LONDON, Subscribing To Insurance Policy Numbers SS0002114/2730 AND
SS0002115/2566 unknown persons or business entities of unknown residence,
Defendant - Appellee.

APP-3

10/22/2018

1
15 pg, 573.25 KB

10/29/2018

2
3 pg, 127.66 KB

10/29/2018

3
3 pg, 129.75 KB

11/01/2018

4
2 pg, 203.52 KB

11/27/2018

5
1 pg, 185.62 KB

APPENDIX B

DOCKETED CAUSE AND ENTERED APPEARANCES OF COUNSEL. SEND MQ: Yes. The schedule is
set as follows: Mediation Questionnaire due on 10/29/2018. Appellant Brighton Collectibles, LLC opening
brief due 12/18/2018. Appellee Certain Underwriters at Lloyd's London answering brief due 01/17/2019.
Appellant's optional reply brief is due 21 days after service of the answering brief. [11056005] (JBS)
[Entered: 10/22/2018 04:01 PM]
Filed (ECF) Appellee Certain Underwriters at Lloyd's London Mediation Questionnaire. Date of service:
10/29/2018. [11065074] [18-56403] (Lee, Tami Kay) [Entered: 10/29/2018 05:05 PM]
Filed (ECF) Appellant Brighton Collectibles, LLC Mediation Questionnaire. Date of service: 10/29/2018.
[11065121] [18-56403] (Ross, Peter) [Entered: 10/29/2018 06:14 PM]
MEDIATION ORDER FILED: The Mediation Program of the 9th Circuit Court of Appeals facilitates
settlement while appeals are pending. By 11/16/2018, counsel for all parties intending to file briefs in this
matter are requested to inform the Circuit Mediator by email of their clients' views on whether the issues on
appeal or the underlying dispute might be amenable to settlement presently or in the foreseeable future.
This communication will be kept confidential, if requested... This communication should not be filed with
the court... The existing briefing schedule remains in effect... [11068864] (VS) [Entered: 11/01/2018 01:55
PM]
MEDIATION ORDER FILED: This case is RELEASED from the Mediation Program. Counsel are requested
to contact the Circuit Mediator should circumstances develop that warrant further settlement discussions.
[11099891] (VS) [Entered: 11/27/2018 09:35 AM]

12/06/2018

6

Filed (ECF) Streamlined request for extension of time to file Opening Brief by Appellant Brighton
Collectibles, LLC. New requested due date is 01/17/2019. [11111939] [18-56403] (Ross, Peter) [Entered:
12/06/2018 10:01 AM]

12/06/2018

7

Streamlined request [6] by Appellant Brighton Collectibles, LLC to extend time to file the brief is
approved. Amended briefing schedule: Appellant Brighton Collectibles, LLC opening brief due
01/17/2019. Appellee Certain Underwriters at Lloyd's London answering brief due 02/19/2019. The
optional reply brief is due 21 days from the date of service of the answering brief. [11112141] (JN)
[Entered: 12/06/2018 11:11 AM]

8

Submitted (ECF) Opening Brief for review. Submitted by Appellant Brighton Collectibles, LLC. Date of
service: 01/17/2019. [11158111] [18-56403] (Ross, Peter) [Entered: 01/17/2019 09:26 PM]

01/17/2019

48 pg, 284.84 KB

01/17/2019

9
799 pg, 54.15 MB

01/18/2019

10
2 pg, 187.2 KB

Submitted (ECF) excerpts of record. Submitted by Appellant Brighton Collectibles, LLC. Date of service:
01/17/2019. [11158112] [18-56403] (Ross, Peter) [Entered: 01/17/2019 09:31 PM]
Filed clerk order: The opening brief [8] submitted by Brighton Collectibles, LLC is filed. Within 7 days of the
filing of this order, filer is ordered to file 7 copies of the brief in paper format, accompanied by certification
(attached to the end of each copy of the brief) that the brief is identical to the version submitted
electronically. Cover color: blue. The Court has reviewed the excerpts of record [9] submitted by Brighton
Collectibles, LLC. Within 7 days of this order, filer is ordered to file 4 copies of the excerpts in paper format
securely bound on the left side, with white covers. The paper copies shall be submitted to the principal
office of the Clerk. [11158712] (GV) [Entered: 01/18/2019 10:27 AM]

01/24/2019

11

Received 7 paper copies of Opening Brief [8] filed by Brighton Collectibles, LLC. [11165335] (SD) [Entered:
01/24/2019 01:29 PM]

01/24/2019

12

Filed 4 paper copies of excerpts of record [9] in 4 volume(s) filed by Appellant Brighton Collectibles, LLC.
[11167227] (LA) [Entered: 01/25/2019 02:14 PM]

02/01/2019

13

Filed (ECF) notice of appearance of Charles Avrith for Appellant Brighton Collectibles, LLC. Date of
service: 02/01/2019. (Party previously proceeding without counsel: No) [11175424] [18-56403] (Ross,
Peter) [Entered: 02/01/2019 09:02 AM]

02/01/2019

14

Notice of Appearance (ECF Filing) [13] is rejected. Filer is not permitted to file on behalf of another
attorney. Each attorney must file their own notice of appearance. [11175492] (CW) [Entered:
02/01/2019 09:27 AM]

02/01/2019

15

Filed (ECF) notice of appearance of Charles Avrith for Appellant Brighton Collectibles, LLC. Date of
service: 02/01/2019. (Party previously proceeding without counsel: No) [11175543] [18-56403] (Avrith,
Charles) [Entered: 02/01/2019 09:41 AM]

02/01/2019

16

Added attorney Charles Avrith for Brighton Collectibles, LLC, in case 18-56403. [11175574] (CW) [Entered:
02/01/2019 09:55 AM]

02/07/2019

17

Filed (ECF) Streamlined request for extension of time to file Answering Brief by Appellee Certain
Underwriters at Lloyd's London. New requested due date is 03/21/2019. [11182613] [18-56403] (Lee, Tami
Kay) [Entered: 02/07/2019 12:36 PM]

02/07/2019

18

Streamlined request [17] by Appellee Certain Underwriters at Lloyd's London to extend time to file
the brief is approved. Amended briefing schedule: Appellee Certain Underwriters at Lloyd's London
answering brief due 03/21/2019. The optional reply brief is due 21 days from the date of service of
the answering brief. [11182638] (JN) [Entered: 02/07/2019 12:51 PM]

19

Submitted (ECF) Answering Brief for review. Submitted by Appellee Certain Underwriters at Lloyd's
London. Date of service: 03/21/2019. [11238376] [18-56403] (Lee, Tami Kay) [Entered: 03/21/2019 05:53
PM]

03/21/2019

51 pg, 194.21 KB

03/22/2019

20
2 pg, 94.9 KB

Filed clerk order: The answering brief [19] submitted by Certain Underwriters at Lloyd's London is filed.
Within 7 days of the filing of this order, filer is ordered to file 7 copies of the brief in paper format,
accompanied by certification (attached to the end of each copy of the brief) that the brief is identical to the
version submitted electronically. Cover color: red. The paper copies shall be submitted to the principal
office of the Clerk. [11239272] (LA) [Entered: 03/22/2019 01:51 PM]

03/28/2019

21

Received 7 paper copies of Answering Brief [19] filed by Certain Underwriters at Lloyd's London.
[11245330] (DB) [Entered: 03/28/2019 12:38 PM]

03/29/2019

22

Filed (ECF) Streamlined request for extension of time to file Reply Brief by Appellant Brighton Collectibles,
LLC. New requested due date is 05/10/2019. [11247008] [18-56403] (Avrith, Charles) [Entered: 03/29/2019
03:00 PM]

03/29/2019

23

Streamlined request [22] by Appellant Brighton Collectibles, LLC to extend time to file the brief is
approved. Amended briefing schedule: the optional reply brief is due 05/13/2019. [11247092] (DLM)
[Entered: 03/29/2019 03:32 PM]

24

Submitted (ECF) Reply Brief for review. Submitted by Appellant Brighton Collectibles, LLC. Date of service:
05/13/2019. [11296059] [18-56403] (Ross, Peter) [Entered: 05/13/2019 11:03 PM]

05/13/2019

23 pg, 585.71 KB

05/14/2019

25
2 pg, 94.88 KB

Filed clerk order: The reply brief [24] submitted by Brighton Collectibles, LLC is filed. Within 7 days of the
filing of this order, filer is ordered to file 7 copies of the brief in paper format, accompanied by certification
(attached to the end of each copy of the brief) that the brief is identical to the version submitted
electronically. Cover color: gray. The paper copies shall be submitted to the principal office of the Clerk.
[11296539] (LA) [Entered: 05/14/2019 11:08 AM]

05/16/2019

26

Received 7 paper copies of Reply Brief [24] filed by Brighton Collectibles, LLC. [11299856] (SD) [Entered:
05/16/2019 10:55 AM]

10/02/2019

27

This case is being considered for an upcoming oral argument calendar in Pasadena

APP-4

APPENDIX B

Please review the Pasadena sitting dates for February 2020 and the 2 subsequent sitting months in that
location at http://www.ca9.uscourts.gov/court_sessions. If you have an unavoidable conflict on any of the
dates, please file Form 32 within 3 business days of this notice using the CM/ECF filing type Response
to Case Being Considered for Oral Argument. Please follow the form's instructions carefully.
When setting your argument date, the court will try to work around unavoidable conflicts; the court is not
able to accommodate mere scheduling preferences. You will receive notice that your case has been
assigned to a calendar approximately 10 weeks before the scheduled oral argument date.
If the parties wish to discuss settlement before an argument date is set, they should jointly request referral
to the mediation unit by filing a letter within 3 business days of this notice, using CM/ECF (Type of
Document: File Correspondence to Court; Subject: request for mediation).[11451972][18-56403] (AW)
[Entered: 10/02/2019 03:32 PM]
10/03/2019

28
1 pg, 58.27 KB

10/08/2019

29
1 pg, 103.07 KB

10/31/2019

30

Filed (ECF) Attorney Peter Wayne Ross, Esquire for Appellant Brighton Collectibles, LLC response to
notice for case being considered for oral argument. Date of service: 10/03/2019. [11453259] [18-56403]
(Ross, Peter) [Entered: 10/03/2019 02:20 PM]
Filed (ECF) Attorney Ms. Tami Kay Lee for Appellee Certain Underwriters at Lloyd's London response to
notice for case being considered for oral argument. Date of service: 10/08/2019. [11458114] [18-56403]
(Lee, Tami Kay) [Entered: 10/08/2019 01:55 PM]
This case is being considered for an upcoming oral argument calendar in Pasadena
Please review the Pasadena sitting dates for March 2020 and the 2 subsequent sitting months in that
location at http://www.ca9.uscourts.gov/court_sessions. If you have an unavoidable conflict on any of the
dates, please file Form 32 within 3 business days of this notice using the CM/ECF filing type Response
to Case Being Considered for Oral Argument. Please follow the form's instructions carefully.
When setting your argument date, the court will try to work around unavoidable conflicts; the court is not
able to accommodate mere scheduling preferences. You will receive notice that your case has been
assigned to a calendar approximately 10 weeks before the scheduled oral argument date.
If the parties wish to discuss settlement before an argument date is set, they should jointly request referral
to the mediation unit by filing a letter within 3 business days of this notice, using CM/ECF (Type of
Document: File Correspondence to Court; Subject: request for mediation).[11485112][18-56403] (AW)
[Entered: 10/31/2019 02:31 PM]

11/04/2019

31
1 pg, 52.83 KB

11/05/2019

32
1 pg, 102.62 KB

12/22/2019

33

Filed (ECF) Acknowledgment of hearing notice by Attorney Peter Wayne Ross, Esquire for Appellant
Brighton Collectibles, LLC. Hearing in Pasadena on 03/02/2020 at 09:00 A.M. (Courtroom: N/A). Filer
sharing argument time: No. (Argument minutes: 15.) Special accommodations: NO. Filer admission status:
I certify that I am admitted to practice before this Court. Date of service: 11/04/2019. [11488799] [1856403] (Ross, Peter) [Entered: 11/04/2019 06:16 PM]
Filed (ECF) Attorney Ms. Tami Kay Lee for Appellee Certain Underwriters at Lloyd's London response to
notice for case being considered for oral argument. Date of service: 11/05/2019. [11490356] [18-56403]
(Lee, Tami Kay) [Entered: 11/05/2019 05:43 PM]
Notice of Oral Argument on Monday, March 2, 2020 - 09:00 A.M. - Courtroom 3 - Pasadena CA.
View the Oral Argument Calendar for your case here.
Be sure to review the GUIDELINES for important information about your hearing, including when to arrive
(30 minutes before the hearing time) and when and how to submit additional citations (filing electronically
as far in advance of the hearing as possible).
If you are the specific attorney or self-represented party who will be arguing, use the
ACKNOWLEDGMENT OF HEARING NOTICE filing type in CM/ECF no later than 21 days before Monday,
March 2, 2020. No form or other attachment is required. If you will not be arguing, do not file an
acknowledgment of hearing notice.[11541118]. [Array, 18-56403] (AW) [Entered: 12/22/2019 06:08 AM]

02/03/2020

34

Filed (ECF) Acknowledgment of hearing notice by Attorney Ms. Tami Kay Lee for Appellee Certain
Underwriters at Lloyd's London. Hearing in Pasadena on 03/02/2020 at 09:00 A.M. (Courtroom: Courtroom
3). Filer sharing argument time: No. (Argument minutes: 20.) Special accommodations: NO. Filer
admission status: I certify that I am admitted to practice before this Court. Date of service: 02/03/2020.
[11583609] [18-56403] (Lee, Tami Kay) [Entered: 02/03/2020 04:52 PM]

02/05/2020

35

Filed (ECF) Acknowledgment of hearing notice by Attorney Peter Wayne Ross, Esquire for Appellant
Brighton Collectibles, LLC. Hearing in Pasadena on 03/02/2020 at 09:00 A.M. (Courtroom: Courtroom 3).
Filer sharing argument time: No. (Argument minutes: 15.) Special accommodations: NO. Filer admission
status: I certify that I am admitted to practice before this Court. Date of service: 02/05/2020. [11587137]
[18-56403] (Ross, Peter) [Entered: 02/05/2020 04:53 PM]

03/02/2020

36

ARGUED AND SUBMITTED TO ANDREW D. HURWITZ, MICHELLE T. FRIEDLAND and EDWARD R.
KORMAN. [11615064] (DLM) [Entered: 03/02/2020 02:34 PM]

37

Filed Audio recording of oral argument.
Note: Video recordings of public argument calendars are available on the Court's website, at
http://www.ca9.uscourts.gov/media/
[11620966] (DLM) [Entered: 03/06/2020 12:47 PM]

03/06/2020

1 pg, 31.04 MB

03/16/2020

03/27/2020

8 pg, 307.14 KB

FILED MEMORANDUM DISPOSITION (ANDREW D. HURWITZ, MICHELLE T. FRIEDLAND and
EDWARD R. KORMAN) REVERSED and REMANDED for further proceedings. FILED AND ENTERED
JUDGMENT. [11630472] (MM) [Entered: 03/16/2020 08:52 AM]

39

Filed (ECF) Appellant Brighton Collectibles, LLC bill of costs (Form 10) in the amount of $456.30 USD.
Date of service: 03/27/2020 [11644276] [18-56403] (Avrith, Charles) [Entered: 03/27/2020 02:30 PM]

38

1 pg, 84.55 KB

03/30/2020

40
34 pg, 401.68 KB

04/09/2020

41
17 pg, 85.27 KB

04/17/2020

42
17 pg, 497.51 KB

04/24/2020

43
1 pg, 122.3 KB

Filed (ECF) Appellee Certain Underwriters at Lloyd's London petition for rehearing en banc (from
03/16/2020 memorandum). Date of service: 03/30/2020. [11646428] [18-56403] (Lee, Tami Kay) [Entered:
03/30/2020 07:40 PM]
Filed (ECF) Appellant Brighton Collectibles, LLC response to motion (motion for certification to the
california supreme court). Date of service: 04/09/2020. [11656869]. [18-56403] --[COURT UPDATE:
Updated docket text to reflect correct ECF filing type. 4/10/2020 by TYL] (Avrith, Charles) [Entered:
04/09/2020 04:59 PM]
Filed (ECF) Appellee Certain Underwriters at Lloyd's London reply to response (). Date of service:
04/17/2020. [11665017] [18-56403] (Lee, Tami Kay) [Entered: 04/17/2020 04:59 PM]
Filed order (ANDREW D. HURWITZ, MICHELLE T. FRIEDLAND and EDWARD R. KORMAN): The panel
has unanimously voted to deny Defendant-Appellee’s petition for panel rehearing. Judges Hurwitz and
Friedland have voted to deny the petition for rehearing en banc, and Judge Korman so recommends. The
full court has been advised of the petition for rehearing en banc, and no judge has requested a vote on
whether to rehear the matter en banc. Fed. R. App. P. 35. The petitions for panel rehearing and rehearing
en banc are DENIED. [11670650] (AF) [Entered: 04/24/2020 09:41 AM]

04/24/2020

44

Filed text clerk order (Deputy Clerk: AF): The motion (Dkt. [40]) for certification to the California Supreme
Court (included in the petitions), is denied. [11670677] (AF) [Entered: 04/24/2020 09:54 AM]

05/04/2020

45

MANDATE ISSUED.(ADH, MTF and ERK) Costs taxed against Appellee in the amount of $456.30.

APP-5

1 pg, 95.45 KB

APPENDIX B

[11678881] (CW) [Entered: 05/04/2020 08:21 AM]

APP-6

APPENDIX B

Clear All
Documents and Docket Summary
Documents Only
Include Page Numbers
Selected Pages: 0

Selected Size: 0 KB

View Selected

PACER Service Center
Transaction Receipt
U.S. Court of Appeals for the 9th Circuit - 09/15/2020 12:02:24
PACER Login:

pks041719

Client Code:

CHA.167

Description:

Docket Report (filtered)

Search Criteria:

18-56403

Billable Pages:

5

Cost:

0.50

APP-7

APPENDIX C

Brighton Collectibles, LLC v. Certain Underwriters at..., 798 Fed.Appx. 144...

798 Fed.Appx. 144 (Mem)
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals, Ninth Circuit.
BRIGHTON COLLECTIBLES, LLC, a Delaware
Limited Liability Company, Plaintiff-Appellant,
v.
CERTAIN UNDERWRITERS AT LLOYD’S
LONDON, Subscribing To Insurance Policy
Numbers SS0002114/2730 and SS0002115/2566
unknown persons or business entities of
unknown residence, Defendant-Appellee.
No. 18-56403
|
Argued and Submitted March
2, 2020 Pasadena, California
|
FILED March 16, 2020
Attorneys and Law Firms
Charles Avrith, Esquire, Senior Litigation Counsel, Eric
M. George, Esquire, Attorney, Peter Wayne Ross, Esquire,
Attorney, Browne George Ross LLP, Los Angeles, CA, for
Plaintiff - Appellant
Tami Kay Lee, Attorney, P.K. Schrieffer LLP, West Covina,
CA, for Defendant - Appellee
Appeal from the United States District Court for the
Central District of California, John F. Walter, District Judge,
Presiding, D.C. No. 2:18-cv-01107-JFW-GJS
Before: HURWITZ and FRIEDLAND, Circuit Judges, and
KORMAN, * District Judge.

*145 MEMORANDUM **
In this insurance dispute, Brighton Collectibles, LLC
(“Brighton”) appeals the district court’s grant of summary
judgment to Certain Underwriters at Lloyd’s London
(“Lloyd’s”). The district court held that Lloyd’s does not

have a duty to defend Brighton against a putative class
action by Lida Yeheskel (the “Yeheskel Action”), which
alleges that Brighton collected and sold Yeheskel’s and other
customers’ personal information in violation of California’s
Song-Beverly Credit Card Act (the “Credit Card Act”), Cal.
Civ. Code § 1747.08. We have jurisdiction under 28 U.S.C.
§ 1291 and reverse.
Under California law, an insurer has a duty to defend its
insured unless “there is no potential for coverage.” Montrose
Chem. Corp. v. Superior Court, 6 Cal.4th 287, 24 Cal.Rptr.2d
467, 861 P.2d 1153, 1157 (1993). To trigger this duty, “the
insured need only show that the underlying claim may fall
within policy coverage.” Id., 24 Cal.Rptr.2d 467, 861 P.2d at
1161. “The determination whether the insurer owes a duty
to defend usually is made in the first instance by comparing
the allegations of the complaint with the terms of the policy.”
Horace Mann Ins. Co. v. Barbara B., 4 Cal.4th 1076, 17
Cal.Rptr.2d 210, 846 P.2d 792, 795 (1993).
As relevant here, Brighton’s policies with Lloyd’s cover
“ ‘[p]ersonal injury’ caused by an offense arising out of
[Brighton’s] business,” defined to include the “[o]ral or
written publication of material that violates a person’s right
of privacy.” The district court held that the Yeheskel Action
is not covered by this personal injury provision. We disagree.
The Yeheskel Action alleges the violation of “a person’s right
of privacy” within the meaning of Brighton’s policies. In Los
Angeles Lakers, Inc. v. Federal Insurance Co., 869 F.3d 795
(9th Cir. 2017), we held that a claim under the Telephone
Consumer Protection Act “is inherently an invasion of
privacy claim” because Congress stated in that Act that
“privacy rights” are the interests “this section is intended
to protect.” Id. at 803, 806 (quoting 47 U.S.C. § 227(b)(2)
(B)(ii)(I), (C)). Because the California Supreme Court has
made clear that the Credit Card Act’s “overriding purpose”
is likewise to “protect the personal privacy of consumers,”
Pineda v. Williams-Sonoma Stores, Inc., 51 Cal.4th 524, 120
Cal.Rptr.3d 531, 246 P.3d 612, 619 (2011) (quotation marks
and citation omitted), we conclude that Yeheskel’s Credit
Card Act claim alleges an invasion of privacy sufficient to
trigger Lloyd’s duty to defend.
Lloyd’s obligation to defend is not eliminated by the
policies’ exclusion of coverage for “advertising, publishing,
broadcasting or telecasting done by or for [Brighton].” The
word “publishing” in this coverage exclusion cannot be read
to have the same meaning as the word “publication” in the
personal injury provision. Such a reading would exclude

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

APP-8

APPENDIX C

Brighton Collectibles, LLC v. Certain Underwriters at..., 798 Fed.Appx. 144...

coverage for virtually any *146 publication over which
Brighton might realistically be sued, rendering the policies’
express coverage for publications that violate privacy rights
“practically meaningless.” Safeco Ins. Co. of Am. v. Robert
S., 26 Cal.4th 758, 110 Cal.Rptr.2d 844, 28 P.3d 889, 894-95
(2001) (rejecting a broad construction of an exclusion that
would have rendered coverage “illusory” and violated the
insured’s reasonable expectations).

to mean “widespread promotional activities usually directed
to the public at large”). Yeheskel’s allegations that Brighton
sold customer information to select third-party marketers,
if true, would constitute “publication” of the information,
see State Farm Gen. Ins. Co. v. JT’s Frames, Inc., 181
Cal.App.4th 429, 104 Cal. Rptr. 3d 573, 587 (2010), but
would not rise to the level of widespread, public-facing

Moreover, the grouping of “publishing” with “advertising ...,
broadcasting or telecasting” in the coverage exclusion
suggests that the exclusion applies only to broad, publicfacing marketing activities. See Hameid v. Nat’l Fire Ins. of
Hartford, 31 Cal.4th 16, 1 Cal.Rptr.3d 401, 71 P.3d 761, 766
(2003) (interpreting the term “advertising” in liability policies

REVERSED and REMANDED for further proceedings.

“publishing.” 1

All Citations
798 Fed.Appx. 144 (Mem)

Footnotes
*
**
1

The Honorable Edward R. Korman, United States District Judge for the Eastern District of New York, sitting
by designation.
This disposition is not appropriate for publication and is not precedent except as provided by Ninth Circuit
Rule 36-3.
In light of our determination that the Yeheskel Action alleges a personal injury based on a privacy violation, we
need not decide whether it also alleges an “advertising injury” within the meaning of the insurance policies. We
also decline to reach two issues the parties did not raise in their briefing: (1) whether “civil penalt[ies]” under
the Credit Card Act are “damages” within the meaning of Brighton’s policies, see Cal. Civ. Code § 1747.08(e);
and (2) whether the fact that the Credit Card Act proscribes only the collection of customer information, and
not its subsequent publication, see Cal. Civ. Code § 1747.08(a)(1)-(2), means the Yeheskel Action does not
implicate the “publication of material” covered by Brighton’s policies.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

APP-9

APPENDIX D

Brighton Collectibles, LLC v. Certain Underwriters at Lloyds London, Slip Copy (2018)

2018 WL 9782167
Only the Westlaw citation is currently available.
United States District Court, C.D. California.
BRIGHTON COLLECTIBLES, LLC, et al.
v.
CERTAIN UNDERWRITERS AT LLOYDS LONDON
Case No. CV 18-1107-JFW(GJSx)
|
Filed 09/27/2018
Attorneys and Law Firms
Zev B. Zysman, Zev Zysman Law Offices APC, Encino,
CA, Charles Avrith, Eric M. George, Peter W. Ross,
Browne George Ross LLP, Los Angeles, CA, for Brighton
Collectibles, LLC, et al.
David Theodore Hayek, Paul K. Schrieffer, Tami Kay
Lee, PK Schrieffer LLP, West Covina, CA, for Certain
Underwriters At Lloyds London.

PROCEEDINGS (IN CHAMBERS): ORDER
GRANTING DEFENDANT UNDERWRITERS'
MOTION FOR SUMMARY JUDGMENT ON
PLAINTIFF'S ENTIRE COMPLAINT OR,
ALTERNATIVELY, PARTIAL SUMMARY
JUDGMENT ON THE 3 RD CAUSE OF ACTION
FOR “BAD FAITH” [filed 8/24/18; Docket No. 50]
HONORABLE JOHN F. WALTER, UNITED STATES
DISTRICT JUDGE
*1 On August 24, 2018, Defendant Certain Underwriters
at Lloyds London (“Lloyds”) filed a Motion for Summary
Judgment on Plaintiff's Entire Complaint or, Alternatively,
Partial Summary Judgment on the 3 rd Cause of Action
for “Bad Faith” (“Motion”). On August 31, 2018, Plaintiff
Brighton Collectibles, LLC (“Brighton”) filed its Opposition.
On September 10, 2018, Lloyds filed a Reply. Pursuant
to Rule 78 of the Federal Rules of Civil Procedure and
Local Rule 7-15, the Court found the matter appropriate for
submission on the papers without oral argument. The matter
was, therefore, removed from the Court's September 24, 2018
hearing calendar and the parties were given advance notice.
After considering the moving, opposing, and reply papers,
and the arguments therein, the Court rules as follows:

I. Factual and Procedural Background 1
This is an insurance coverage dispute arising out of Brighton's
claim that Lloyds has a duty to indemnify and defend
Brighton in the class action lawsuit entitled Lida Yeheskel v.
Brighton Collectibles, LLC, pending in the Superior Court
of the State of California, County of Ventura, Case No.
56-2016-00489019-CU-BT-VTA” (the “Yeheskel Action”),
which was filed on November 14, 2016 and alleges a single
cause of action for violation of California Civil Code §
1747.08, et seq., also known as the Song-Beverly Credit Card
Act. Complaint, ¶ 1.
A. The Underlying Yeheskel Action
In the Yeheskel Action, Plaintiff Lida Yeheskel (“Yeheskel”)
alleges that she visited a Brighton retail store in Thousand
Oaks, California on September 15, 2016, and purchased
a Brighton product with a credit card. As part of
Brighton's alleged Information Capture Policy, a Brighton
employee asked Yeheskel to provide her full name, e-mail
address, residence address, and telephone number during the
credit card sale. Yeheskel provided the requested personal
identifying information to the Brighton employee who then
recorded the information into Brighton's electronic database.
After the credit card transaction was completed, Yeheskel
left the store. At no time did Yeheskel object to or question
Brighton's request for her personal identifying information.
In her Complaint, Yeheskel does not allege that Brighton
collected any information other than her “personal identifying
information,” which included her full name, e-mail address,
residence address, and telephone number, along with the
credit card information necessary to complete the sale. In
addition, Yeheskel does not allege that Brighton collected any
other information, such as Yeheskel's driver's license number,
her age, or her social security number. In fact, Yeheskel
admitted in deposition testimony that the store clerk never
asked about her age. Therefore, the information that Brighton
collected and immediately recorded at the point-of-sale was
merely neutral, personal identifying data.
*2 Yeheskel also alleges that Brighton sold her personal
identifying information (and that of other customers) to third
parties engaged in direct marketing and that Brighton used
the personal identifying information it collected from her
and other customers to solicit existing customers to buy
its products. There are no allegations that Brighton used
Yeheskel's personal identifying information for any purpose

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

APP-10

APPENDIX D

Brighton Collectibles, LLC v. Certain Underwriters at Lloyds London, Slip Copy (2018)

other than in furtherance of Brighton's routine commercial
activities. Moreover, there are no allegations that Brighton's
collection of the data was accomplished by anyone other than
by Brighton via its employees. Finally, there are no allegations
that the third parties that purchased Yeheskel's personal
identifying information subsequently sold that information to
other third parties.
B. The Relevant Policy Language
Brighton made a demand for coverage for the Yeheskel Action
under the two policies issued by Lloyds, Business Owner's
Liability Insurance Policy No. SS0002114/2730, in effect
June 21, 2015 to June 21, 2016, and Business Owner's
Liability Insurance Policy No. SS0002115/2566, in effect
June 21, 2016 to June 21, 2017 (collectively, the “Policies”),
which Lloyds denied because it concluded that there was no
duty to defend and/or no coverage under the Policies.
Section III(A)(1)(a) 2 of the Policies provides coverage as
follows: “We will pay those sums that the insured becomes
legally obligated to pay as damages because of ‘bodily
injury’[,] ‘property damage’, ‘personal injury’ or ‘advertising
injury’ to which this insurance applies. We will have the right
and duty to defend any ‘suit’ seeking those damages.” Section
III(A)(1)(b)(2)(a) and (b) provided that the insurance applies
to “ ‘personal injury’ caused by an offense arising out of your
business, excluding advertising, publishing, broadcasting or
telecasting done by or for you” and “ ‘[a]dvertising injury’
caused by an offense committed in the course of advertising
your goods, products or services.”
Section III(F)(1)(b) defines “advertising injury” as “injury
arising out of” “[o]ral or written publication of material
that violates a person's right of privacy.” Section III(F)(3)
defines “bodily injury” as “bodily injury, sickness or disease
sustained by a person, including death resulting from any
of these at any time.” Section III(F)(1)(e) defines “personal
injury” as “injury, other than ‘bodily injury’, arising out of ...
[o]ral or written publication of material that violates a person's
right of privacy.”
C. Procedural History
On November 28, 2017, Brighton filed a Complaint in
Ventura County Superior Court, which Lloyds removed to
this Court on February 8, 2018, and which alleges causes of
action for: (1) breach of contract; (2) declaratory relief; and
(3) bad faith. 3 Brighton alleges that Lloyds wrongful denied

coverage and that Brighton is entitled to coverage under the
“personal injury” and/or “advertising injury” insuring clauses
based on Yeheskel's allegations that Brighton collected her
personal identifying data and sold it, along with the personal
identifying information of other customers, to third party
direct marketers and also used it to market its products
to its existing customers. Brighton alleges that the conduct
alleged by Yeheskel – creating lists of its customers' personal
identifying information it has collected and then selling those
customer lists to third parties – satisfies the definition of a
“publication” that “violates a person's privacy right” under
the Policies.
II. Legal Standard
*3 Summary judgment is proper where “the movant shows
that there is no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). The moving party has the burden of demonstrating
the absence of a genuine issue of fact for trial. See Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 256 (1986). Once the
moving party meets its burden, a party opposing a properly
made and supported motion for summary judgment may not
rest upon mere denials but must set out specific facts showing
a genuine issue for trial. Id. at 250; Fed. R. Civ. P. 56(c),
(e); see also Taylor v. List, 880 F.2d 1040, 1045 (9th Cir.
1989) (“A summary judgment motion cannot be defeated
by relying solely on conclusory allegations unsupported by
factual data.”). In particular, when the non-moving party bears
the burden of proving an element essential to its case, that
party must make a showing sufficient to establish a genuine
issue of material fact with respect to the existence of that
element or be subject to summary judgment. See Celotex
Corp. v. Catrett, 477 U.S. 317, 322 (1986). “An issue of fact
is not enough to defeat summary judgment; there must be a
genuine issue of material fact, a dispute capable of affecting
the outcome of the case.” American International Group, Inc.
v. American International Bank, 926 F.2d 829, 833 (9th Cir.
1991) (Kozinski, dissenting).
An issue is genuine if evidence is produced that would allow
a rational trier of fact to reach a verdict in favor of the nonmoving party. Anderson, 477 U.S. at 248. “This requires
evidence, not speculation.” Meade v. Cedarapids, Inc., 164
F.3d 1218, 1225 (9th Cir. 1999). The Court must assume the
truth of direct evidence set forth by the opposing party. See
Hanon v. Dataproducts Corp., 976 F.2d 497, 507 (9th Cir.
1992). However, where circumstantial evidence is presented,
the Court may consider the plausibility and reasonableness
of inferences arising therefrom. See Anderson, 477 U.S. at

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

APP-11

APPENDIX D

Brighton Collectibles, LLC v. Certain Underwriters at Lloyds London, Slip Copy (2018)

249-50; TW Elec. Serv., Inc. v. Pacific Elec. Contractors
Ass'n, 809 F.2d 626, 631-32 (9th Cir. 1987). Although the
party opposing summary judgment is entitled to the benefit
of all reasonable inferences, “inferences cannot be drawn
from thin air; they must be based on evidence which, if
believed, would be sufficient to support a judgment for the
nonmoving party.” American International Group, 926 F.2d
at 836-37. In that regard, “a mere ‘scintilla’ of evidence
will not be sufficient to defeat a properly supported motion
for summary judgment; rather, the nonmoving party must
introduce some ‘significant probative evidence tending to
support the complaint.’ ” Summers v. Teichert & Son, Inc.,
127 F.3d 1150, 1152 (9th Cir. 1997).
III. Discussion
A. Standard for Interpreting an Insurance Policy
“Interpretation of an insurance policy is a question of law
and follows the general rules of contract interpretation.”
MacKinnon v. Truck Ins. Exchange, 31 Cal. 4th 635, 647
(Cal. 2003). 4 “A contract must be so interpreted as to give
effect to the mutual intention of the parties as it existed at
the time of contracting, so far as the same is ascertainable
and lawful.” Cal. Civ. Code § 1636. “Such intent is to be
inferred, if possible, solely from the written provisions of the
contract. The ‘clear and explicit’ meaning of these provisions,
interpreted in their ‘ordinary and popular sense,’ unless ‘used
by the parties in a technical sense or a special meaning is
given to them by usage’ controls judicial interpretation. Thus,
if the meaning a layperson would ascribe to contract language
is not ambiguous, we apply that meaning.” AIU Ins. Co. v.
Superior Court, 51 Cal. 3d 807, 822 (Cal. 1990) (internal
citations omitted).
“The determination of ambiguity is a question of law” for the
Court to decide. City of Chino v. Jackson, 97 Cal. App. 4th
377, 385 (2002). “When interpreting a contract, even when
the document is unambiguous on its face, a judge is required
to give ‘at least a preliminary consideration [to] all credible
evidence offered to prove the intention of the parties.’ ” JonesHamilton Co v. Beazer Materials & Services, Inc., 973 F.2d
688, 692 (9th Cir. 1992) (quoting Pacific Gas & Elec. Co. v.
G.W. Thomas Drayage & Rigging Co., 69 Cal. 2d 33, 40-41
(1968)). “A policy provision will be considered ambiguous
when it is capable of two or more constructions, both of which
are reasonable. But language in a contract must be interpreted
as a whole, and in the circumstances of the case, and cannot be
found to be ambiguous in the abstract. Courts will not strain
to create an ambiguity where none exists.” Waller v. Truck

Ins. Exchange, Inc., 11 Cal. 4th 1, 18-19 (Cal. 1995) (internal
citations omitted).
B. There Is No Coverage Under the Policies.
*4 In this case, the Court has reviewed the Policies and
concludes that, as a matter of law, the provisions at issue are
unambiguous, and there is no coverage under the Policies.
In addition, although the duty to defend may be broad, it is
limited and defined by the “nature and kinds of risks covered
by the policy.” Hartford Casulaty Insurance Co. v. Swift
Distribution, Inc., 59 Cal. 4th 277, 288 (2014). Where, as in
this case, there is no potential for coverage, there is no duty to
defend. Quan v. Truck Insurance Exchange, 67 Cal. App. 4th
583, 592 (1998). Accordingly, Lloyds is entitled to summary
judgment.

1. There Was No “Publication of Material that
Violates a Person's Right of Privacy” by Brighton.
Brighton argues that it is entitled to coverage under the
“personal injury” or “advertising injury” insuring clauses
in the Policies because Brighton's alleged conduct involved
an “[o]ral or written publication of material that violates a
person's right of privacy.” See Section III(F)(1)(b) and (3) of
the Policies. Lloyds argues that there is no coverage under the
Policies because there was no invasion of Yeheskel's right to
privacy. The Court agrees with Lloyds.
Yeheskel's claim that Brighton's request for her personal
identifying information invaded her right to privacy has been
rejected by California courts that have decided the issue in the
context of actions under the Song-Beverly Act. For example,
the court in Folgelstrom v. Lamps Plus, Inc. 195 Cal. App. 4th
986, 992 (2011), held as follows:

Whether a legally recognized privacy
interest is present in a given case
is a question of law to be decided
by the court. Whether plaintiff has
a reasonable expectation of privacy
in the circumstances and whether
defendant's conduct constitutes a
serious invasion of privacy are mixed
questions of law and fact. If the
undisputed material facts show no
reasonable expectation of privacy or

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

APP-12

APPENDIX D

Brighton Collectibles, LLC v. Certain Underwriters at Lloyds London, Slip Copy (2018)

an insubstantial impact on privacy
interests, the question of invasion may
be adjudicated as a matter of law.

In order for there to be coverage for Brighton's conduct
involving the alleged “publication of material that violates
a person's right of privacy,” Brighton must first demonstrate
that the personal identifying data it collected from Yeheskel
was private. Folgelstrom, 195 Cal. App. 4th at 992.
In this case, Brighton has failed to demonstrate that it
collected anything other than routine personal identifying
information which Yeheskel voluntarily provided to
Brighton's cashier at the point of sale and which Yeheskel
had already freely provided to other merchants, such as
Ralph's Supermarket and CVS Pharmacy. Therefore, the
Court concludes that the information that Yeheskel provided
to Brighton was not private. Diaz v. Oakland Tribune, 139
Cal. App. 3d 118, 131 (1985).
In addition, there is no claim that Brighton used the personal
identifying information for an improper or offensive purpose.
Indeed, Yeheskel merely alleges that Brighton used the
personal identifying information it collected to market its
products to existing customers and that it sold the information
to direct marketers. Thus, even if Yeheskel's personal
identifying information could be considered “private,” there
still would not be an invasion of Yeheskel's privacy because
her information was not used for an improper or offensive
purpose. As the Fogelstrom court held:
Indeed, we have found no case which imposes liability
based on the defendant obtaining unwanted access to the
plaintiff's private information which did not also allege
that the use of plaintiff's information was highly offensive.
However questionable the means employed to obtain
plaintiff's address, there is no allegation that Lamps Plus
used the address once obtained for an offensive or improper
purpose.
*5 Finally, we note that plaintiff seeks to add gravity to
his privacy claims by suggesting that Lamps Plus's conduct
increased the risk that he would be victimized in an identity
theft scam. This is a speculative conclusion of fact which
we may disregard on review of a demurrer.
Id. at 992-93.

Similarly, Yeheskel testified at her deposition that her damage
claim was based solely on her fear that she might be a victim
of identity theft from the collected data. As in Fogelstrom,
this fear is, at best, a speculative conclusion of fact.
Accordingly, the Court concludes that there is no potential
for coverage under the Policies because Brighton's request
for personal identifying information and Yeheskel's voluntary
compliance with the request as alleged by Yeheskel did not
constitute an invasion of her privacy.

2. Brighton's Alleged Offense Was Not Committed
in the Course of “Advertising Activities.”
It is undisputed that Yeheskel's claim arises out of Brighton's
collection of her personal identifying information during an
ordinary credit card transaction and not during Brighton's
traditional advertising activities. However, the parties
disagree on whether the manner in which Brighton collected
and subsequently used Yeheskel's personal identifying
information constitutes “advertising activities,” which would
give rise to coverage under the Policies. The Court concludes
that Brighton's collection and use of Yeheskel's personal
identifying information as alleged by Yeheskel does not
qualify as an “advertising injury” under the Policies.
In analyzing the insuring clause for “advertising injury” in
a commercial general liability (“CGL”) policy, which was
similar to the Policies at issue in the case, the California
Supreme Court in Hameid v. National Fire Ins. Of Hartford,
31 Cal. 4th 16, 28-29 (2003), rejected the argument that
“advertising” included activity involving personal solicitation
of customers, such as sending mailers to customers on a
mailing list or making personal phone calls to the customer
from a customer list. Instead, the California Supreme Court
concluded that the term “advertising” as used in a CGL
policy means “widespread promotional activities usually
directed to the public at large.” Id. at 28-29. Thus, Brighton's
collection of Yeheskel's personal identifying information,
which was used to solicit existing customers does not
constitute “advertising injury” under the Policies because
there are no allegations that the information was ever used for
“widespread promotional activities directed to the public at
large.”
Accordingly, the Court concludes that there is no potential for
coverage under the “advertising injury” clause in the Policies
because the collection of Yeheskel's personal identifying

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

APP-13

APPENDIX D

Brighton Collectibles, LLC v. Certain Underwriters at Lloyds London, Slip Copy (2018)

information and Brighton's subsequent use of that information
does not constitute advertising activity.

3. “Personal Injury” Coverage in the
Policies Does Not Include Conduct Arising
Out of the Publication or Publishing of
Yeheskel's Personal Identifying Information.
Section III(F)(1)(e) of the Policies defines “personal injury”
as “injury, other than ‘bodily injury’, arising out of ... [o]ral
or written publication of material that violates a person's
right of privacy.” Section III(A)(1)(b)(2)(a) limits coverage
for “personal injury” to “an offense arising out of your
business, excluding advertising, publishing, broadcasting or
telecasting done by or for you.” Brighton argues that its
sale of Yeheskel's personal identifying information to third
party direct marketers constitutes a “publication,” and, thus,
Brighton is entitled to coverage under the “personal injury”
clause of the Policies. Lloyds argues that there is no coverage
under the “personal injury” clause of the Policies because
that coverage expressly excludes conduct “arising out of”
publishing “done by or for you” and Brighton's conduct falls
within that exclusion. In response, Brighton argues that giving
the same meaning to the terms “publishing” and “publication”
as Lloyds suggests would eviscerate coverage for an injury
caused by “oral or written publication of material that violates
a person's right of privacy” because that coverage would
be completely swallowed by the exclusion for “publishing”
activity. The Court agrees with Lloyds.
*6 The Court concludes that Brighton's act of selling
Yeheskel's personal identifying information to third party
direct marketers constitutes a “publication” as that term is
used in the “personal injury” clause of the Policies. State
Farm General Ins. Co. v. JT's Frames, Inc., 181 Cal. App.4th
429, 447-49 (2010) (holding that where “personal injury”
coverage in an insurance policy requires “publication,” the
term means “making known to any person or organization”).

However, despite the fact that Brighton's act constitutes
a “publication,” Brighton is still not entitled to coverage.
The “personal injury” insuring clause includes an exception
for “publishing” activities “arising out of” publishing done
“by or for” Brighton. See Los Angeles Lakers v. Federal
Insurance Co., 869 F.3d 795, 800 (2017) (holding that
the phrase “arising out of” should be broadly construed
in exclusionary clauses); see also Palmer v. Truck Ins.
Exchange, 21 Cal. 4th 1109, 1116-17 (1999) (holding that
the rule of contract interpretation requires that the same word
used in an instrument is generally given the same meaning
unless the policy indicates otherwise). In this case, it is
undisputed that the sale of Yeheskel's personal identifying
information to third party direct marketers was done “by and
for” Brighton. 5
Accordingly, the Court concludes that based on the exception
provided in Section III(A)(1)(b)(2)(a), there is no potential for
coverage under the “personal injury” clause in the Policies.
IV. Conclusion
For all the foregoing reasons, Lloyds' Motion is GRANTED.
The parties are ordered to meet and confer and prepare a
joint proposed Judgment which is consistent with the Court's
Order. The parties shall lodge the joint proposed Judgment
with the Court on or before October 3, 2018. In the unlikely
event that counsel are unable to agree upon a joint proposed
Judgment, the parties shall each submit separate versions
of a proposed Judgment along with a declaration outlining
their objections to the opposing party's version no later than
October 3, 2018.
IT IS SO ORDERED.
All Citations
Slip Copy, 2018 WL 9782167

Footnotes
1

To the extent any of these facts are disputed, they are not material to the disposition of this motion. In
addition, to the extent that the Court has relied on evidence to which the parties have objected, the Court
has considered and overruled those objections. As to the remaining objections, the Court finds that it is
unnecessary to rule on those objections because the disputed evidence was not relied on by the Court.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

APP-14

APPENDIX D

Brighton Collectibles, LLC v. Certain Underwriters at Lloyds London, Slip Copy (2018)

2
3

4
5

Lloyds issued two Policies, which contain identical coverage clauses under Section III, Business Owners'
Liability.
Brighton filed a prior Complaint against Lloyds in this Court on August 9, 2017, Case No. CV 17-5925-JFW
(GSX), which alleged only breach of contract and declaratory relief claims. On October 24, 2017, the Court
dismissed the action without prejudice due to Brighton's failure to file a Joint Rule 26(f) Report as required
by the Court's September 12, 2017 Order.
The parties agree that California law governs the interpretation of the Policies.
As Lloyds points out, the exception is limited to “publishing” activity “by or for” Brighton. However, the
exception does not foreclose the possibility of coverage based on an allegation that an unknown third party
improperly “published” or made a “publication” of information that violates a person's right to privacy without
Brighton's consent or knowledge and, thus, would not be conduct done “by or for” Brighton. In addition,
although Brighton argues that the terms “publishing” and “publication” should be given different meanings,
there is nothing in the Policies that supports this argument. Moreover, the Court notes that Brighton's expert,
Paul Amoruso, used the terms “publishing” and “publication” interchangeably and without any attempt to
distinguish the meaning of these two terms multiple times in his report. Therefore, the Court finds Brighton's
argument unpersuasive.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

APP-15

APPENDIX E

§ 1012. Regulation by State law; Federal law relating specifically..., 15 USCA § 1012

United States Code Annotated
Title 15. Commerce and Trade
Chapter 20. Regulation of Insurance (Refs & Annos)
15 U.S.C.A. § 1012
§ 1012. Regulation by State law; Federal law relating specifically to
insurance; applicability of certain Federal laws after June 30, 1948
Currentness
(a) State regulation
The business of insurance, and every person engaged therein, shall be subject to the laws of the several States which relate to
the regulation or taxation of such business.
(b) Federal regulation
No Act of Congress shall be construed to invalidate, impair, or supersede any law enacted by any State for the purpose of
regulating the business of insurance, or which imposes a fee or tax upon such business, unless such Act specifically relates to
the business of insurance: Provided, That after June 30, 1948, the Act of July 2, 1890, as amended, known as the Sherman Act,
and the Act of October 15, 1914, as amended, known as the Clayton Act, and the Act of September 26, 1914, known as the
Federal Trade Commission Act, as amended, shall be applicable to the business of insurance to the extent that such business
is not regulated by State law.
CREDIT(S)
(Mar. 9, 1945, c. 20, § 2, 59 Stat. 34; July 25, 1947, c. 326, 61 Stat. 448.)

Notes of Decisions (492)
15 U.S.C.A. § 1012, 15 USCA § 1012
Current through P.L. 116-158.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

APP-16

APPENDIX F

§ 1254. Courts of appeals; certiorari; certified questions, 28 USCA § 1254

United States Code Annotated
Title 28. Judiciary and Judicial Procedure (Refs & Annos)
Part IV. Jurisdiction and Venue (Refs & Annos)
Chapter 81. Supreme Court (Refs & Annos)
28 U.S.C.A. § 1254
§ 1254. Courts of appeals; certiorari; certified questions
Currentness
Cases in the courts of appeals may be reviewed by the Supreme Court by the following methods:
(1) By writ of certiorari granted upon the petition of any party to any civil or criminal case, before or after rendition of
judgment or decree;
(2) By certification at any time by a court of appeals of any question of law in any civil or criminal case as to which instructions
are desired, and upon such certification the Supreme Court may give binding instructions or require the entire record to be
sent up for decision of the entire matter in controversy.
CREDIT(S)
(June 25, 1948, c. 646, 62 Stat. 928; Pub.L. 100-352, § 2(a), (b), June 27, 1988, 102 Stat. 662.)

Notes of Decisions (518)
28 U.S.C.A. § 1254, 28 USCA § 1254
Current through P.L. 116-158.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

APP-17

APPENDIX F

§ 1652. State laws as rules of decision, 28 USCA § 1652

United States Code Annotated
Title 28. Judiciary and Judicial Procedure (Refs & Annos)
Part V. Procedure
Chapter 111. General Provisions (Refs & Annos)
28 U.S.C.A. § 1652
§ 1652. State laws as rules of decision
Currentness
The laws of the several states, except where the Constitution or treaties of the United States or Acts of Congress otherwise require
or provide, shall be regarded as rules of decision in civil actions in the courts of the United States, in cases where they apply.
CREDIT(S)
(June 25, 1948, c. 646, 62 Stat. 944.)

Notes of Decisions (353)
28 U.S.C.A. § 1652, 28 USCA § 1652
Current through P.L. 116-158.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

APP-18

Rule 56. Summary Judgment, FRCP Rule 56

APPENDIX G

United States Code Annotated
Federal Rules of Civil Procedure for the United States District Courts (Refs & Annos)
Title VII. Judgment
Federal Rules of Civil Procedure Rule 56
Rule 56. Summary Judgment
Currentness
<Notes of Decisions for 28 USCA Federal Rules of Civil Procedure Rule 56 are displayed in multiple documents.>
(a) Motion for Summary Judgment or Partial Summary Judgment. A party may move for summary judgment, identifying
each claim or defense--or the part of each claim or defense--on which summary judgment is sought. The court shall grant
summary judgment if the movant shows that there is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law. The court should state on the record the reasons for granting or denying the motion.
(b) Time to File a Motion. Unless a different time is set by local rule or the court orders otherwise, a party may file a motion
for summary judgment at any time until 30 days after the close of all discovery.
(c) Procedures.
(1) Supporting Factual Positions. A party asserting that a fact cannot be or is genuinely disputed must support the assertion
by:
(A) citing to particular parts of materials in the record, including depositions, documents, electronically stored information,
affidavits or declarations, stipulations (including those made for purposes of the motion only), admissions, interrogatory
answers, or other materials; or
(B) showing that the materials cited do not establish the absence or presence of a genuine dispute, or that an adverse party
cannot produce admissible evidence to support the fact.
(2) Objection That a Fact Is Not Supported by Admissible Evidence. A party may object that the material cited to support
or dispute a fact cannot be presented in a form that would be admissible in evidence.
(3) Materials Not Cited. The court need consider only the cited materials, but it may consider other materials in the record.
(4) Affidavits or Declarations. An affidavit or declaration used to support or oppose a motion must be made on personal
knowledge, set out facts that would be admissible in evidence, and show that the affiant or declarant is competent to testify
on the matters stated.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

APP-19

Rule 56. Summary Judgment, FRCP Rule 56

APPENDIX G

(d) When Facts Are Unavailable to the Nonmovant. If a nonmovant shows by affidavit or declaration that, for specified
reasons, it cannot present facts essential to justify its opposition, the court may:
(1) defer considering the motion or deny it;
(2) allow time to obtain affidavits or declarations or to take discovery; or
(3) issue any other appropriate order.
(e) Failing to Properly Support or Address a Fact. If a party fails to properly support an assertion of fact or fails to properly
address another party's assertion of fact as required by Rule 56(c), the court may:
(1) give an opportunity to properly support or address the fact;
(2) consider the fact undisputed for purposes of the motion;
(3) grant summary judgment if the motion and supporting materials--including the facts considered undisputed--show that
the movant is entitled to it; or
(4) issue any other appropriate order.
(f) Judgment Independent of the Motion. After giving notice and a reasonable time to respond, the court may:
(1) grant summary judgment for a nonmovant;
(2) grant the motion on grounds not raised by a party; or
(3) consider summary judgment on its own after identifying for the parties material facts that may not be genuinely in dispute.
(g) Failing to Grant All the Requested Relief. If the court does not grant all the relief requested by the motion, it may enter
an order stating any material fact--including an item of damages or other relief--that is not genuinely in dispute and treating
the fact as established in the case.
(h) Affidavit or Declaration Submitted in Bad Faith. If satisfied that an affidavit or declaration under this rule is submitted
in bad faith or solely for delay, the court--after notice and a reasonable time to respond--may order the submitting party to pay
the other party the reasonable expenses, including attorney's fees, it incurred as a result. An offending party or attorney may
also be held in contempt or subjected to other appropriate sanctions.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

APP-20

Rule 56. Summary Judgment, FRCP Rule 56

APPENDIX G

CREDIT(S)
(Amended December 27, 1946, effective March 19, 1948; January 21, 1963, effective July 1, 1963; March 2, 1987, effective
August 1, 1987; April 30, 2007, effective December 1, 2007; March 26, 2009, effective December 1, 2009; April 28, 2010,
effective December 1, 2010.)
ADVISORY COMMITTEE NOTES
1937 Adoption
This rule is applicable to all actions, including those against the United States or an officer or agency thereof.
Summary judgment procedure is a method for promptly disposing of actions in which there is no genuine issue as to any material
fact. It has been extensively used in England for more than 50 years and has been adopted in a number of American states.
New York, for example, has made great use of it. During the first nine years after its adoption there, the records of New York
county alone show 5,600 applications for summary judgments. Report of the Commission on the Administration of Justice in
New York State (1934), p. 383. See also Third Annual Report of the Judicial Council of the State of New York (1937), p. 30.
In England it was first employed only in cases of liquidated claims, but there has been a steady enlargement of the scope of the
remedy until it is now used in actions to recover land or chattels and in all other actions at law, for liquidated or unliquidated
claims, except for a few designated torts and breach of promise of marriage. English Rules Under the Judicature Act (The
Annual Practice, 1937) O. 3, r. 6; Orders 14, 14A, and 15; see also O. 32, r. 6, authorizing an application for judgment at any
time upon admissions. In Michigan (3 Comp.Laws (1929) § 14260) and Illinois (Smith-Hurd Ill.Stats. c. 110, §§ 181, 259.15,
259.16), it is not limited to liquidated demands. New York (N.Y.R.C.P. (1937) Rule 113; see also Rule 107) has brought so
many classes of actions under the operation of the rule that the Commission on Administration of Justice in New York State
(1934) recommend that all restrictions be removed and that the remedy be available “in any action” (p. 287). For the history
and nature of the summary judgment procedure and citations of state statutes, see Clark and Samenow, The Summary Judgment
(1929), 38 Yale L.J. 423.
Note to Subdivision (d). See Rule 16 (Pre-Trial Procedure; Formulating Issues) and the Note thereto.
Note to Subdivisions (e) and (f). These are similar to rules in Michigan. Mich.Court Rules Ann. (Searl, 1933) Rule 30.
1946 Amendment
Note to Subdivision (a). The amendment allows a claimant to move for a summary judgment at any time after the expiration
of 20 days from the commencement of the action or after service of a motion for summary judgment by the adverse party.
This will normally operate to permit an earlier motion by the claimant than under the original rule, where the phrase “at any
time after the pleading in answer thereto has been served” operates to prevent a claimant from moving for summary judgment,
even in a case clearly proper for its exercise, until a formal answer has been filed. Thus in Peoples Bank v. Federal Reserve
Bank of San Francisco, N.D.Cal.1944, 58 F.Supp. 25, the plaintiff's countermotion for a summary judgment was stricken as
premature, because the defendant had not filed an answer. Since Rule 12(a) allows at least 20 days for an answer, that time
plus the 10 days required in Rule 56(c) means that under original Rule 56(a) a minimum period of 30 days necessarily has to
elapse in every case before the claimant can be heard on his right to a summary judgment. An extension of time by the court
or the service of preliminary motions of any kind will prolong that period even further. In many cases this merely represents
unnecessary delay. See United States v. Adler's Creamery, Inc., C.C.A.2, 1939, 107 F.2d 987. The changes are in the interest of
more expeditious litigation. The 20-day period, as provided, gives the defendant an opportunity to secure counsel and determine
a course of action. But in a case where the defendant himself makes a motion for summary judgment within that time, there is
no reason to restrict the plaintiff and the amended rule so provides.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

APP-21

Rule 56. Summary Judgment, FRCP Rule 56

APPENDIX G

Subdivision (c). The amendment of Rule 56(c), by the addition of the final sentence, resolves a doubt expressed in Sartor v.
Arkansas Natural Gas Corp., 1944, 64 S.Ct. 724, 321 U.S. 620, 88 L.Ed. 967. See also Commentary, Summary Judgment as to
Damages, 1944, 7 Fed.Rules Serv. 974; Madeirense Do Brasil S/A v. Stulman-Emrick Lumber Co., C.C.A.2d, 1945, 147 F.2d
399, certiorari denied 1945, 65 S.Ct. 1201, 325 U.S. 861, 89 L.Ed. 1982. It makes clear that although the question of recovery
depends on the amount of damages, the summary judgment rule is applicable and summary judgment may be granted in a proper
case. If the case is not fully adjudicated it may be dealt with as provided in subdivision (d) of Rule 56, and the right to summary
recovery determined by a preliminary order, interlocutory in character, and the precise amount of recovery left for trial.
Subdivision (d). Rule 54(a) defines “judgment” as including a decree and “any order from which an appeal lies.” Subdivision
(d) of Rule 56 indicates clearly, however, that a partial summary “judgment” is not a final judgment, and, therefore, that it is
not appealable, unless in the particular case some statute allows an appeal from the interlocutory order involved. The partial
summary judgment is merely a pretrial adjudication that certain issues shall be deemed established for the trial of the case.
This adjudication is more nearly akin to the preliminary order under Rule 16, and likewise serves the purpose of speeding up
litigation by eliminating before trial matters wherein there is no genuine issue of fact. See Leonard v. Socony-Vacuum Oil Co.,
C.C.A.7, 1942, 130 F.2d 535; Biggins v. Oltmer Iron Works, C.C.A.7, 1946, 154 F.2d 214; 3 Moore's Federal Practice, 1938,
3190-3192. Since interlocutory appeals are not allowed, except where specifically provided by statute, see 3 Moore, op. cit.
supra, 3155-3156, this interpretation is in line with that policy, Leonard v. Socony-Vacuum Oil Co., supra. See also Audi Vision
Inc. v. RCA Mfg. Co., C.C.A.2, 1943, 136 F.2d 621; Toomey v. Toomey, 1945, 149 F.2d 19, 80 U.S.App.D.C. 77; Biggins v.
Oltmer Iron Works, supra; Catlin v. United States, 1945, 65 S.Ct. 631, 324 U.S. 229, 89 L.Ed. 911.
1963 Amendment
Subdivision (c). By the amendment “answers to interrogatories” are included among the materials which may be considered on
motion for summary judgment. The phrase was inadvertently omitted from the rule, see 3 Barron & Holtzoff, Federal Practice
& Procedure 159-60 (Wright ed. 1958), and the courts have generally reached by interpretation the result which will hereafter
be required by the text of the amended rule. See Annot., 74 A.L.R.2d 984 (1960).
Subdivision (e). The words “answers to interrogatories” are added in the third sentence of this subdivision to conform to the
amendment of subdivision (c).
The last two sentences are added to overcome a line of cases, chiefly in the Third Circuit, which has impaired the utility of the
summary judgment device. A typical case is as follows: A party supports his motion for summary judgment by affidavits or
other evidentiary matter sufficient to show that there is no genuine issue as to a material fact. The adverse party, in opposing the
motion, does not produce any evidentiary matter, or produces some but not enough to establish that there is a genuine issue for
trial. Instead, the adverse party rests on averments of his pleadings which on their face present an issue. In this situation Third
Circuit cases have taken the view that summary judgment must be denied, at least if the averments are “well-pleaded,” and not
suppositious, conclusory, or ultimate. See Frederick Hart & Co., Inc. v. Recordgraph Corp., 169 F.2d 580 (3d Cir. 1948); United
States ex rel. Kolton v. Halpern, 260 F.2d 590 (3d Cir. 1958); United States ex rel. Nobles v. Ivey Bros. Constr. Co., Inc., 191
F.Supp. 383 (D.Del.1961); Jamison v. Pennsylvania Salt Mfg. Co., 22 F.R.D. 238 (W.D.Pa.1958); Bunny Bear, Inc. v. Dennis
Mitchell Industries, 139 F.Supp. 542 (E.D.Pa.1956); Levy v. Equitable Life Assur. Society, 18 F.R.D. 164 (E.D.Pa.1955).
The very mission of the summary judgment procedure is to pierce the pleadings and to assess the proof in order to see whether
there is a genuine need for trial. The Third Circuit doctrine, which permits the pleadings themselves to stand in the way of
granting an otherwise justified summary judgment, is incompatible with the basic purpose of the rule. See 6 Moore's Federal
Practice 2069 (2d ed. 1953); 3 Barron & Holtzoff, supra, § 1235.1.
It is hoped that the amendment will contribute to the more effective utilization of the salutary device of summary judgment.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

APP-22

Rule 56. Summary Judgment, FRCP Rule 56

APPENDIX G

The amendment is not intended to derogate from the solemnity of the pleadings. Rather it recognizes that, despite the best efforts
of counsel to make his pleadings accurate, they may be overwhelmingly contradicted by the proof available to his adversary.
Nor is the amendment designed to affect the ordinary standards applicable to the summary judgment motion. So, for example:
Where an issue as to a material fact cannot be resolved without observation of the demeanor of witnesses in order to evaluate
their credibility, summary judgment is not appropriate. Where the evidentiary matter in support of the motion does not establish
the absence of a genuine issue, summary judgment must be denied even if no opposing evidentiary matter is presented. And
summary judgment may be inappropriate where the party opposing it shows under subdivision (f) that he cannot at the time
present facts essential to justify his opposition.
1987 Amendment
The amendments are technical. No substantive change is intended.
2007 Amendment
The language of Rule 56 has been amended as part of the general restyling of the Civil Rules to make them more easily
understood and to make style and terminology consistent throughout the rules. These changes are intended to be stylistic only.
Former Rule 56(a) and (b) referred to summary-judgment motions on or against a claim, counterclaim, or crossclaim, or to
obtain a declaratory judgment. The list was incomplete. Rule 56 applies to third-party claimants, intervenors, claimants in
interpleader, and others. Amended Rule 56(a) and (b) carry forward the present meaning by referring to a party claiming relief
and a party against whom relief is sought.
Former Rule 56(c), (d), and (e) stated circumstances in which summary judgment “shall be rendered,” the court “shall if
practicable” ascertain facts existing without substantial controversy, and “if appropriate, shall” enter summary judgment. In
each place “shall” is changed to “should.” It is established that although there is no discretion to enter summary judgment when
there is a genuine issue as to any material fact, there is discretion to deny summary judgment when it appears that there is no
genuine issue as to any material fact. Kennedy v. Silas Mason Co., 334 U.S. 249, 256-257 (1948). Many lower court decisions
are gathered in 10A Wright, Miller & Kane, Federal Practice & Procedure: Civil 3d, § 2728. “Should” in amended Rule 56(c)
recognizes that courts will seldom exercise the discretion to deny summary judgment when there is no genuine issue as to any
material fact. Similarly sparing exercise of this discretion is appropriate under Rule 56(e)(2). Rule 56(d)(1), on the other hand,
reflects the more open-ended discretion to decide whether it is practicable to determine what material facts are not genuinely
at issue.
Former Rule 56(d) used a variety of different phrases to express the Rule 56(c) standard for summary judgment--that there is
no genuine issue as to any material fact. Amended Rule 56(d) adopts terms directly parallel to Rule 56(c).
2009 Amendment
The timing provisions for summary judgment are outmoded. They are consolidated and substantially revised in new subdivision
(c)(1). The new rule allows a party to move for summary judgment at any time, even as early as the commencement of the
action. If the motion seems premature both subdivision (c)(1) and Rule 6(b) allow the court to extend the time to respond. The
rule does set a presumptive deadline at 30 days after the close of all discovery.
The presumptive timing rules are default provisions that may be altered by an order in the case or by local rule. Scheduling
orders are likely to supersede the rule provisions in most cases, deferring summary-judgment motions until a stated time or
establishing different deadlines. Scheduling orders tailored to the needs of the specific case, perhaps adjusted as it progresses,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

APP-23

Rule 56. Summary Judgment, FRCP Rule 56

APPENDIX G

are likely to work better than default rules. A scheduling order may be adjusted to adopt the parties' agreement on timing, or
may require that discovery and motions occur in stages--including separation of expert-witness discovery from other discovery.
Local rules may prove useful when local docket conditions or practices are incompatible with the general Rule 56 timing
provisions.
If a motion for summary judgment is filed before a responsive pleading is due from a party affected by the motion, the time for
responding to the motion is 21 days after the responsive pleading is due.
2010 Amendment
Rule 56 is revised to improve the procedures for presenting and deciding summary-judgment motions and to make the procedures
more consistent with those already used in many courts. The standard for granting summary judgment remains unchanged. The
language of subdivision (a) continues to require that there be no genuine dispute as to any material fact and that the movant be
entitled to judgment as a matter of law. The amendments will not affect continuing development of the decisional law construing
and applying these phrases.
Subdivision (a). Subdivision (a) carries forward the summary-judgment standard expressed in former subdivision (c), changing
only one word--genuine “issue” becomes genuine “dispute.” “Dispute” better reflects the focus of a summary-judgment
determination. As explained below, “shall” also is restored to the place it held from 1938 to 2007.
The first sentence is added to make clear at the beginning that summary judgment may be requested not only as to an entire
case but also as to a claim, defense, or part of a claim or defense. The subdivision caption adopts the common phrase “partial
summary judgment” to describe disposition of less than the whole action, whether or not the order grants all the relief requested
by the motion.
“Shall” is restored to express the direction to grant summary judgment. The word “shall” in Rule 56 acquired significance over
many decades of use. Rule 56 was amended in 2007 to replace “shall” with “should” as part of the Style Project, acting under
a convention that prohibited any use of “shall.” Comments on proposals to amend Rule 56, as published in 2008, have shown
that neither of the choices available under the Style Project conventions--“must” or “should”--is suitable in light of the case law
on whether a district court has discretion to deny summary judgment when there appears to be no genuine dispute as to any
material fact. Compare Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 255 (1986)(“Neither do we suggest that the trial courts
should act other than with caution in granting summary judgment or that the trial court may not deny summary judgment in a
case in which there is reason to believe that the better course would be to proceed to a full trial. Kennedy v. Silas Mason Co.,
334 U.S. 249 * * * (1948)”), with Celotex Corp. v. Catrett, 477 U.S. 317, 322 (1986)(“In our view, the plain language of Rule
56(c) mandates the entry of summary judgment, after adequate time for discovery and upon motion, against a party who fails to
make a showing sufficient to establish the existence of an element essential to that party's case, and on which that party will bear
the burden of proof at trial.”). Eliminating “shall” created an unacceptable risk of changing the summary-judgment standard.
Restoring “shall” avoids the unintended consequences of any other word.
Subdivision (a) also adds a new direction that the court should state on the record the reasons for granting or denying the motion.
Most courts recognize this practice. Among other advantages, a statement of reasons can facilitate an appeal or subsequent trialcourt proceedings. It is particularly important to state the reasons for granting summary judgment. The form and detail of the
statement of reasons are left to the court's discretion.
The statement on denying summary judgment need not address every available reason. But identification of central issues may
help the parties to focus further proceedings.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

APP-24

Rule 56. Summary Judgment, FRCP Rule 56

APPENDIX G

Subdivision (b). The timing provisions in former subdivisions (a) and (c) are superseded. Although the rule allows a motion
for summary judgment to be filed at the commencement of an action, in many cases the motion will be premature until the
nonmovant has had time to file a responsive pleading or other pretrial proceedings have been had. Scheduling orders or other
pretrial orders can regulate timing to fit the needs of the case.
Subdivision (c). Subdivision (c) is new. It establishes a common procedure for several aspects of summary-judgment motions
synthesized from similar elements developed in the cases or found in many local rules.
Subdivision (c)(1) addresses the ways to support an assertion that a fact can or cannot be genuinely disputed. It does not address
the form for providing the required support. Different courts and judges have adopted different forms including, for example,
directions that the support be included in the motion, made part of a separate statement of facts, interpolated in the body of a
brief or memorandum, or provided in a separate statement of facts included in a brief or memorandum.
Subdivision (c)(1)(A) describes the familiar record materials commonly relied upon and requires that the movant cite the
particular parts of the materials that support its fact positions. Materials that are not yet in the record--including materials
referred to in an affidavit or declaration--must be placed in the record. Once materials are in the record, the court may, by order
in the case, direct that the materials be gathered in an appendix, a party may voluntarily submit an appendix, or the parties
may submit a joint appendix. The appendix procedure also may be established by local rule. Pointing to a specific location
in an appendix satisfies the citation requirement. So too it may be convenient to direct that a party assist the court in locating
materials buried in a voluminous record.
Subdivision (c)(1)(B) recognizes that a party need not always point to specific record materials. One party, without citing any
other materials, may respond or reply that materials cited to dispute or support a fact do not establish the absence or presence of
a genuine dispute. And a party who does not have the trial burden of production may rely on a showing that a party who does
have the trial burden cannot produce admissible evidence to carry its burden as to the fact.
Subdivision (c)(2) provides that a party may object that material cited to support or dispute a fact cannot be presented in a form
that would be admissible in evidence. The objection functions much as an objection at trial, adjusted for the pretrial setting.
The burden is on the proponent to show that the material is admissible as presented or to explain the admissible form that is
anticipated. There is no need to make a separate motion to strike. If the case goes to trial, failure to challenge admissibility at
the summary-judgment stage does not forfeit the right to challenge admissibility at trial.
Subdivision (c)(3) reflects judicial opinions and local rules provisions stating that the court may decide a motion for summary
judgment without undertaking an independent search of the record. Nonetheless, the rule also recognizes that a court may
consider record materials not called to its attention by the parties.
Subdivision (c)(4) carries forward some of the provisions of former subdivision (e)(1). Other provisions are relocated or omitted.
The requirement that a sworn or certified copy of a paper referred to in an affidavit or declaration be attached to the affidavit
or declaration is omitted as unnecessary given the requirement in subdivision (c)(1)(A) that a statement or dispute of fact be
supported by materials in the record.
A formal affidavit is no longer required. 28 U.S.C. § 1746 allows a written unsworn declaration, certificate, verification, or
statement subscribed in proper form as true under penalty of perjury to substitute for an affidavit.
Subdivision (d). Subdivision (d) carries forward without substantial change the provisions of former subdivision (f).
A party who seeks relief under subdivision (d) may seek an order deferring the time to respond to the summary-judgment motion.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

APP-25

Rule 56. Summary Judgment, FRCP Rule 56

APPENDIX G

Subdivision (e). Subdivision (e) addresses questions that arise when a party fails to support an assertion of fact or fails to
properly address another party's assertion of fact as required by Rule 56(c). As explained below, summary judgment cannot
be granted by default even if there is a complete failure to respond to the motion, much less when an attempted response fails
to comply with Rule 56(c) requirements. Nor should it be denied by default even if the movant completely fails to reply to
a nonmovant's response. Before deciding on other possible action, subdivision (e)(1) recognizes that the court may afford an
opportunity to properly support or address the fact. In many circumstances this opportunity will be the court's preferred first step.
Subdivision (e)(2) authorizes the court to consider a fact as undisputed for purposes of the motion when response or reply
requirements are not satisfied. This approach reflects the “deemed admitted” provisions in many local rules. The fact is
considered undisputed only for purposes of the motion; if summary judgment is denied, a party who failed to make a proper
Rule 56 response or reply remains free to contest the fact in further proceedings. And the court may choose not to consider the
fact as undisputed, particularly if the court knows of record materials that show grounds for genuine dispute.
Subdivision (e)(3) recognizes that the court may grant summary judgment only if the motion and supporting materials-including the facts considered undisputed under subdivision (e)(2)--show that the movant is entitled to it. Considering some facts
undisputed does not of itself allow summary judgment. If there is a proper response or reply as to some facts, the court cannot
grant summary judgment without determining whether those facts can be genuinely disputed. Once the court has determined
the set of facts--both those it has chosen to consider undisputed for want of a proper response or reply and any that cannot be
genuinely disputed despite a procedurally proper response or reply--it must determine the legal consequences of these facts and
permissible inferences from them.
Subdivision (e)(4) recognizes that still other orders may be appropriate. The choice among possible orders should be designed
to encourage proper presentation of the record. Many courts take extra care with pro se litigants, advising them of the need to
respond and the risk of losing by summary judgment if an adequate response is not filed. And the court may seek to reassure
itself by some examination of the record before granting summary judgment against a pro se litigant.
Subdivision (f). Subdivision (f) brings into Rule 56 text a number of related procedures that have grown up in practice. After
giving notice and a reasonable time to respond the court may grant summary judgment for the nonmoving party; grant a motion
on legal or factual grounds not raised by the parties; or consider summary judgment on its own. In many cases it may prove
useful first to invite a motion; the invited motion will automatically trigger the regular procedure of subdivision (c).
Subdivision (g). Subdivision (g) applies when the court does not grant all the relief requested by a motion for summary
judgment. It becomes relevant only after the court has applied the summary-judgment standard carried forward in subdivision
(a) to each claim, defense, or part of a claim or defense, identified by the motion. Once that duty is discharged, the court may
decide whether to apply the summary-judgment standard to dispose of a material fact that is not genuinely in dispute. The court
must take care that this determination does not interfere with a party's ability to accept a fact for purposes of the motion only. A
nonmovant, for example, may feel confident that a genuine dispute as to one or a few facts will defeat the motion, and prefer to
avoid the cost of detailed response to all facts stated by the movant. This position should be available without running the risk
that the fact will be taken as established under subdivision (g) or otherwise found to have been accepted for other purposes.
If it is readily apparent that the court cannot grant all the relief requested by the motion, it may properly decide that the cost of
determining whether some potential fact disputes may be eliminated by summary disposition is greater than the cost of resolving
those disputes by other means, including trial. Even if the court believes that a fact is not genuinely in dispute it may refrain
from ordering that the fact be treated as established. The court may conclude that it is better to leave open for trial facts and
issues that may be better illuminated by the trial of related facts that must be tried in any event.
Subdivision (h). Subdivision (h) carries forward former subdivision (g) with three changes. Sanctions are made discretionary,
not mandatory, reflecting the experience that courts seldom invoke the independent Rule 56 authority to impose sanctions. See
Cecil & Cort, Federal Judicial Center Memorandum on Federal Rule of Civil Procedure 56(g) Motions for Sanctions (April 2,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

APP-26

Rule 56. Summary Judgment, FRCP Rule 56

APPENDIX G

2007). In addition, the rule text is expanded to recognize the need to provide notice and a reasonable time to respond. Finally,
authority to impose other appropriate sanctions also is recognized.

Notes of Decisions (5151)
Fed. Rules Civ. Proc. Rule 56, 28 U.S.C.A., FRCP Rule 56
Including Amendments Received Through 9-1-20
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

APP-27

APPENDIX H

Big 5 Sporting Goods Corp. v. Zurich American Ins. Co., 635 Fed.Appx. 351 (2015)

635 Fed.Appx. 351
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial
decisions issued on or after Jan. 1, 2007.
See also U.S.Ct. of App. 9th Cir. Rule 36-3.
United States Court of Appeals,
Ninth Circuit.
BIG 5 SPORTING GOODS CORPORATION,
a Delaware corporation, Plaintiff–Appellant,
v.
ZURICH AMERICAN INSURANCE
COMPANY, a New York corporation; Hartford
Fire Insurance Company, a Connecticut
corporation, Defendants–Appellees.
No. 13–56249.
|
Argued and Submitted Oct. 21, 2015.
|
Filed Dec. 7, 2015.
Synopsis
Background: Insured corporation brought action against
its commercial general liability (CGL) insurers, asserting
claims under state law arising from insurers' refusal to defend
corporation from class action lawsuits. The parties filed crossmotions for summary judgment. The United States District
Court for the Central District of California, Dolly M. Gee, J.,
957 F.Supp.2d 1135, granted summary judgment to insurers.
Insured appealed.

The Court of Appeals held that under California law, CGL
policies' statutory violation exclusions barred coverage for
claims against insured for violation of state privacy statute
by requesting, recording, and publishing customer zip codes
during credit card transactions.
Affirmed.
Procedural Posture(s): On Appeal; Motion for Summary
Judgment.

Attorneys and Law Firms
*352 David A. Gauntlett, James A. Lowe, Esquire, Gauntlett
& Associates, Irvine, CA, for Plaintiff–Appellant.
Eldon S. Edson, Jan L. Pocaterra, Esquire, Selman Breitman
LLP, Elizabeth L. Musser, David Simantob, Tressler LLP,
Los Angeles, CA, Mitchell C. Tilner, Horvitz & Levy LLP,
Encino, CA, for Defendants–Appellees.
Appeal from the United States District Court for the
Central District of California, Dolly M. Gee, District Judge,
Presiding. D.C. No. 2:12–cv–03699–DMG–MAN.
Before: TROTT, KLEINFELD, and CALLAHAN, Circuit
Judges.

MEMORANDUM *
Because the parties are aware of the facts, circumstances, and
policy language controlling this case, we repeat them only as
necessary to explain our decision.
*353 This lawsuit boils down to (1) whether or not Hartford
had a duty to defend Big 5 against the underlying actions,
and (2) whether or not Zurich had a similar duty. Focusing
on exclusions of coverage in the relevant policies, the district
court concluded that no such duty existed as to either
company. In a thorough order carefully addressing Big 5's
claims and arguments, the court said,

[B]ecause all of the Underlying
Actions in this case arise out of
the alleged violation of the statutory
right to privacy, specifically the Song–
Beverly Act, coverage is barred by
the Statutory Violations Exclusions
under the Policies. Defendants have
established, as a matter of law, that
there is no conceivable theory under
which the claims in the Underlying
Actions warrant coverage. Viewing the
facts in the light most favorable to
Plaintiff does not change this outcome.
Accordingly, Defendants are entitled

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

APP-28

APPENDIX H

Big 5 Sporting Goods Corp. v. Zurich American Ins. Co., 635 Fed.Appx. 351 (2015)

to summary judgment. Conversely,
Plaintiff is not.

We agree.
We begin with Big 5's argument that the insurers had a duty
to defend even if the underlying actions were bound to fail.
Not so. Big 5 ignores that the “duty to defend groundless
actions applies only to claims covered by the policy.” Venoco,
Inc. v. Gulf Underwriters Ins. Co., 175 Cal.App.4th 750,
765, 96 Cal.Rptr.3d 409 (2009) (emphasis added). An insurer
may have a duty to defend against a claim that is meritless
or frivolous, i.e. “a loser,” but not against a claim that is
plainly not covered because of an exclusion. Scottsdale Ins.
Co. v. MV Transp., 36 Cal.4th 643, 655, 31 Cal.Rptr.3d 147,
115 P.3d 460 (2005) (“[I]f, as a matter of law, neither the
complaint nor the known extrinsic facts indicate any basis for
potential coverage, the duty to defend does not arise in the
first instance.”). An insurer has no duty to defend when “the
underlying claim cannot come within the policy coverage by
virtue of the scope of the insuring clause or the breadth of
an exclusion.” Montrose Chem. Corp. v. Sup. Ct., 6 Cal.4th
287, 301, 24 Cal.Rptr.2d 467, 861 P.2d 1153 (1993) (emphasis
added).
Zurich's 2007–2009 “Statutory Violation Exclusion”
language bars coverage for personal and advertising injury
arising directly or indirectly out of any action or omission
that violates or is alleged to violate any statute, ordinance or
regulation that prohibits or limits the sending, transmitting,
communicating, or distribution of material or information.
Zurich's 2009–2010 policy exclusions slightly modify and
expand this language, but not in a material way that might
benefit Big 5.
Hartford's policy creates similar exclusions. The first
exclusion, entitled “Right Of Privacy Created By Statute,”
covers personal and advertising injury arising out of the
violation of a person's right of privacy created by any state
or federal act. The second exclusion, entitled “Distribution
Of Material In Violation of Statutes,” covers personal and
advertising injury arising directly or indirectly out of any
action or omission that violates or is alleged to violate
any statute that prohibits or limits the sending, transmitting,
communicating, or distribution of material or information.
We agree with the district court that Zurich's and Hartford's
exclusionary language encompasses violations of the Song–

Beverly Act—undeniably a statute—as well as any act or
omission that arises directly or indirectly from an alleged
violation of that law.
Big 5 argues, however, that the lawsuits it was forced to
defend contained common law and California constitutional
right to privacy claims separate and apart from *354 any
Song–Beverly Act ZIP Code violations. We disagree. As
did the district court, we conclude that in garden variety
ZIP Code cases like these, such extra Song–Beverly Act
privacy claims simply do not exist. We have scoured the
legal landscape searching for precedents supporting Big 5
assertions, but we have come up empty. To the contrary,
the authority shedding light on this issue points conclusively
in the other direction: California does not recognize any
common law or constitutional privacy right causes of
action for requesting, sending, transmitting, communicating,
distributing, or commercially using ZIP Codes. The only
possible claim is for statutory penalties, not damages.
In 1991, the Song–Beverly Act created by statute a new
right of privacy. As the district court noted, the legislative
history of the Act states, “Existing law does not prohibit
persons who accept credit cards in business transactions
from requiring a cardholder to write or provide personal
identification information for notation on the credit card
transaction form. This bill would enact such a prohibition.”
Nothing has changed since the enactment of that Act.
Folgelstrom v. Lamps Plus, Inc., 195 Cal.App.4th 986, 125
Cal.Rptr.3d 260 (2d Dist.2011), a ZIP Code marketing case,
illuminates our conclusion that the privacy rights asserted
by Big 5 do not exist. In that case, the plaintiff alleged
an invasion of his common law and constitutional rights to
privacy. The Court of Appeal held that “the conduct of which
plaintiff complains does not constitute a ‘serious' invasion of
privacy.” Id. at 992, 125 Cal.Rptr.3d 260. The court reasoned
that “[a]ctionable invasions of privacy must be sufficiently
serious in their nature, scope, and actual or potential impact to
constitute an egregious breach of the social norms underlying
the privacy right.” Id. (quoting Hill v. National Collegiate
Athletic Ass'n, 7 Cal.4th, 1, 37, 26 Cal.Rptr.2d 834, 865 P.2d
633 (1994)). The court said that “[Lamps Plus'] conduct is not
an egregious breach of social norms, but routine commercial
behavior.” Id. As the Supreme Court of California observed in
Hill, “[n]o community could function if every intrusion into
the realm of private action, no matter how slight or trivial,
gave rise to a cause of action for invasion of privacy.” 7
Cal.4th at 37, 26 Cal.Rptr.2d 834, 865 P.2d 633.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

APP-29

APPENDIX H

Big 5 Sporting Goods Corp. v. Zurich American Ins. Co., 635 Fed.Appx. 351 (2015)

Big 5's “claims” are not just lacking in merit. Under settled
California law, they are not even recognized as cognizable
causes of action, a status one step below “unmeritorious.”
Allowing Big 5's fact pattern to rise to the level of a claim
would require an insurance company to insure and defend
against non-existent risks.

general boilerplate pleading of ‘negligence’ adds nothing to a
complaint otherwise devoid of facts giving rise to a potential
for covered liability.”). As the district court recognized,
the California Court of Appeal has discouraged the “artful
drafting” of alleging superfluous negligence claims, saying
that to allow such a practice would inappropriately “erase
exclusions in any policy.” Fire Ins. Exch. v. Jiminez, 184
Cal.App.3d 437, 443 n. 2, 229 Cal.Rptr. 83 (1986).

Folgelstrom also disposes of the plaintiff's increased-risk-ofidentity-theft argument, calling it “a speculative conclusion
of fact.” 195 Cal.App.4th at 993, 125 Cal.Rptr.3d 260.

*355 Accordingly, the district court's Amended Judgment in
favor of Zurich and Hartford is AFFIRMED.

Big 5's negligence theory fares no better. Just as a rose by any
other name is still a rose, so a ZIP Code case under any other
label remains a ZIP Code case. See Swain v. Cal. Cas. Ins.
Co., 99 Cal.App.4th 1, 8–9, 120 Cal.Rptr.2d 808 (2002) (“A

All Citations
635 Fed.Appx. 351

Footnotes
*

This disposition is not appropriate for publication and is not precedent except as provided by 9th Cir. R. 36–3.

End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

APP-30

APPENDIX I

REPORTS OF CASES
DETERMINED IN

THE SUPREME COURT
OF THE
STATE OF CALIFORNIA

December 9, 2010, to June 30, 2011

EDWARD

w. JESSEN

Reporter of Decisions
----~--------------------------------------

VOLUME 51 .. 4th

LexisNexis®

APP-31

APPENDIX I
~Vl 011 n

l<FCLi5
r1·2

Offlcial California Reports-The Supreme Court is publi&hed by Matthew
Bender®, 1275 Broadway, Albany, NY 12204-2694.
Opinion sunnnades, headnotes, tables, other editorial features, classification headings
for headnotes, and related references and statementq prepared by LexisNexis®,
Copyright© 2012 Matthew Bender & Company, Inc., a member of the LexisNexis
Group. All rights reserved. Printed in the United States of America. Except as
permitted under the United States Copyright Act of 1976, no part of this publication
may be reproduced or distributed in any form or by any means, or stored in a
database or retrieval system, without the prior written consent of the publisher.
LexisNexis and the Knowledge Burst logo are trademarks of Reed Elsevier Properties Inc., used under license. Matthew Bender is a registered trademark of Matthew
Bender Properties Inc.

ISBN

978-0~3270-4396-6

••

\•

'1\

APP-32

APPENDIX I

524

PmBDA v. Wn.LIAMs~SoNoMA SroRBs INc :. ·
51 Cal.4tb 524; 120 Cal.Rptr.3d 531; 246 P.3d 612 [Feb.

2ouj: ,:

[No. S178241. Feb. 10, 2011.]
JESSICA PINEDA, Plaintiff and Appellant, v.
WILLIAMS~SONOMA STORES, INC., Defendant and Respondent..

SUMMARY

A customer sued a retailer, asserting a violation of the Song~Beverly Credit ';
Card Act of 1971 (Civ. Code, § 1747 et seq.). The customer alleged that .:
while she was paying for a purchase with her credit card in one of the ..,:
retailer's stores, the cashier asked the customer for her ZIP Code. Believing it.· :
necessary to complete the transaction, the customer provided the requested· :
infonnation and the cashier recorded it. The customer further alleged that the·.:
retailer subsequently used her name and ZIP Code to locate her home· :
address. The trial court sustained the retailer's demurrer to the customer's. ·'
complaint. (Superior Court of San Diego County, No. 37~2008~00086061-·
CU-BT-CTL, Ronald S. Prager, Judge.) The Court of Appeal, Fourth Dist.,'.
Div. One, No. D054355, affhmed the trial cou1t' s judgment, concluding that a ..
ZIP Code, without more, does not constitute ''petsonal identification informa~ .':
tion" as that tetm is defined in Civ. Code,§ 1747.08.
·
.

·. ·

~.::

..

The Supreme Coutt reversed the judgment of the Court of Appeal and .. ':.
remanded the case for further proceedings. The court held that personal'··
identification information, as that term is used in Civ. Code, § 1747.os;·.;
includes a cardholdet' s ZIP Code. Requesting ~nd recording a ·cardholder'~ •. ·
ZIP Code, without more, violates the act. A ZIP Code is readily undetstood to:.
be part of an address. The Legislature, by providing that "personal identifica; :
tion infmmation" includes the cardholder's address, intended to include ·.
components of the address. Otherwise, a business could ask not just for a: .
cardholder's ZIP Code, but also for the cardholder's street and city iri:'. :
addition to the ZIP Code, so long as it did not also ask for the house number. :
Such a construction would render the statute's protections hollow. Thus, the.·.
word "address" in the statute should be construed as encompassing not only a: .
complete address, but also its components. That a cardholder's ZIP Code is·.·.
shared by other individuals in addition to the cardholder does not render it ,·
dissimilar to an address or telephone number. (Opinion by Moreno, J.,:
expressing the unanimous view of the court.)

.

APP-33

APPENDIX I

v. WJLLIAMS~,SoNoMA SroREs, INc.
51 Cal.4th 524; 120 Cal.Rptr.3d 531; 246 P.3d 612 [Feb. 2011]

PINEDA

525

JIEADNOTES

(1) Credit Cards§ 9-Duties.and Liabilities of Retailer-Personal Iden~
tification Information-ZIP Code.-:-A ZIP Code constitutes ''personal
identification information" as that phrase is used in Civ. Code,
§ 1747.08, part of the Song-Beverly Credit Card Act of 1971 (Civ.
Code, § 1747 et seq.). Requesting and recording a cardholder's ZIP
Code, without more, violates the act. Therefore, a contnuy judgment of
the Court of Appeal was subject to reversal.
[Cal. Forms of Pleading and Practice (2010) ch. 127, Consumer Contracts
and Loans, § 127.28; 4 Witkin, Summary of Cal. Law (lOth ed. 2005)
Negotiable Instruments, § 150.]
(2) Statutes § 29-Constructiou-Language-Legislative Intent~
Ambiguity-Extrinsic Aids.-In construing a statute, a court looks first
to the words of a statute, because they generally provide the most
reliable indicator of legislative intent. The court gives the words their
usual and ordinary meaning while construing them in light of the statute
as a whole and the statute's purpose. In other words, the court does not
construe statutes in isolation, but rather reads every statute with refer~
ence to the entire scheme of law of which it is part so that the whole
may be harmonized and retain effectiveness. Generally, civil statutes for
the protection of the public are broadly construed in favor of that
protective purpose. If there is no ambiguity in the language, the court
presumes the Legislature meant what it said and the plain meaning of
the statute governs. Only when the statute's language is ambiguous or
susceptible of more than one reasonable interpretation,. may the court
turn to extrinsic aids to assist in interpretation.

Credit Cards § 2--Definitious-Personal Identification InformationAddress and Telephone Number.-Civ. Code,· § 1747.08, subd. (b),
defines personal identification information. as information conceming a
cardholder, other than information set forth on the credit card, and
including, but not limited to, the cardholder's address and telephone
number.
Credit Cards § 9-Duties and Liabilities of Retailer-Personal Iden"
tiftcation Information-:-Address.-The word "address" in Civ. Code,
§ 1747.08, subd. (b), should be constlued as encompassing not only a
complete address, but also its components.
Credit Cards § 9-Duties and Liabilities of Retailer-Positive Iden·
tification-Driver's License-Address-ZIP Code.-Civ. Code,
§ 1747 .08, subd. (d), permits businesses to require the cardholder, as a

APP-34

APPENDIX I

526

.

Pl.NEDA

v.

WILLIAMS·SoNOMA STORES,

INc.

51 Cal.4th 524; 120 Cal.Rptr.3d 531; 246 P.3d 612 [Feb. 2011]

:·i'
'·I

.'i

condition to accepting the credit card, to provide reasonable forms
of positive identification, which may include a driver's license or a
California state identification card, provided that none of the information
contained thereon is written or recorded. Driver's licenses and state
identification cards contain individuals' addresses, including ZIP Codes.
Thus, under§ 1747.08, subd. (d), a business may require a cardholder to
provide a driver's license, but it may not record any of the information
on the license, including the cardholder's ZIP Code.

(6) Credit Cards§ 9-Duties and Liabilities of Retaller-Personal Iden·
tification Information-ZIP Code.-The only reasonable interpretation
of Civ. Code, § 1747.08, is that personal identification information
includes a cardholder's ZIP Code. (Disapproving to the e:xtent inconsis- ·:
tent; Party City Corp. v. Superior Court (2008) 169 Cal.App.4th 497 [86 ··.'
Cal.Rptr.3d 721].)
..
(7) Credit Cards § 9--Dutles and Liabilities of Retailer-Personal I den~ ••
tification information-ZIP Code-Penalties.-Civ. Code, § 1747.08, ·.. ·
which is violated when a business requests and records a customer's ZIP ·
Code during a credit card transaction, does not mandate fixed penalties; ·
rather, it sets maximum penalties of $250 for the first violation and ·. ·
$1,000 for each subsequent violation. Presumably this could span be~:
tween a penny to the maximum amounts authorized by the statute. Thus, ·
the amount of the penalties awarded rests withi11 the sound discretion of
the trial court.
·
-----------------------------------·--------~-------

CouNSEL

Lindsay & Stonebm·ger, Stonebarger Law, Gene J, Stonebru:ger, James M.
Lindsay, Richard D. Lambert; Harrison Patterson O'Co1mor & Kinkead;·.···
Harrison Patterson & O'Connor, James R. Patterson, Hairy W.. Harrison, .
Matthew J. O'Connor and Cary A. Kinkead for Plaintiff and Appellant.
·
Atkins & Davidson, Todd C. Atkins and Clru·k L. Davidson for the Consumer.:
Federation of California and The Privacy Rights Clearinghouse as Amici.'·
Curiae on behalf of Plaintiff and Appellant.
Sheppard Mullin Richter & Hampton, P. Craig Cardon and Elizabeth S; .·
Berman for Defendant and Respondent.
·
Linda A. Wooley; Venable, John F. Cooney, Michael B. Garfinkel and Paulk::
Rigali for Direct Marketing Association as Amicus Curiae on behalf of, .
Defendant and Respondent.

APP-35

APPENDIX I
PJNBPA

v.

WnnAMs-SoNOMA SToREs, INc.

51 Cal.4th 524; 120 Cal.Rptr.3d 531; 246 P.3d 612

·
[F~b.

527

2011]

: J{nox, Lemmon, Anapolsky & Schrimp and Thomas S. Knox for California
: Retailers Association as Amicus Curiae on behalf of Defendant and
: Respondent.
. Cooley Godward Kronish, Cooley, Michelle C. Doolin, Lori R.E. Ploeger,
·... Leo P. No1ion and Darcie A Tilly for The Gap, Inc., Old Navy, LLC, and
· Banana Republic, LLC, as Amici Curiae on behalf of Defendant and
•. · Respondent.
·:·Call & Jensen, Matthew R. .Orr, Melinda Evans and Scott R. Hatch for Kmart
.:· Bolding Corporation as Amicus Curiae on behalf of Defendant and
. ·. Respondent.

•MORENO, J,-The Song~Beverly Credit Card Act of 1971 (Credit Card
Act) (Civ. Code, § 1747 et seq.) is "designed to promote consumer protection. " (Florez v. Linens 'N Things, Inc. (2003) 108 Cal.App.4th 447, 450 [133
Cal.Rptr.2d 465] (Florez).) One of its provisions, section 1747.08, prohibits
businesses from requesting that cardholders provide "personal identification
intonnation" during credit card transactions, and then recording that information. (Civ. Code, § 1747.08, subd. (a)(2).) 1
···.. Plaintiff sued defendant retailer, asserting a violation of the Credit Card
· Act. Plaintiff alleges that while she was paying for a purchase with her credit
· card in one of defendant'' s stores, the cashier asked plaintiff for her ZIP Code.
Believing it necessary to complete the transaction, plaintiff provided the
requested information and the cashier recorded it. Plaintiff further alleges that
defendant subsequently used her name and ZIP Code to locate her home
·
address. 2
(1) We are now asked to resolve whether section 1747.08 is violated
when a business requests and records a customer's ZIP Code during a credit
.card transaction. In light of the statute's plain language, protective purpose,
and legislative history, we conclude a ZIP Code constitutes "personal identi~
fication information" as that phrase is used in section 1747 .08. Thus, request~
ing and recording a cardholdet'' s ZIP Code, without more, violates the Credit
1

All unlabeled statutory references are to the Civil Code.
ZIP is an acronym that stands for "Zone Improvement Plan." (U.S. Postal Service, Mailing
Standards of the United States Postal Service: Domestic Mail Manual, ch. 602, subtopic 1.8.1
<http://pe.usps.com/text/dmm300/602.htm> [as of Feb. 10, 2011] (DMM).)
2

APP-36

APPENDIX I

528

.
PINEDA v. WILUAMs-SoNoMA STORES} I'Nc.
51 Cal.4th 524; 120 Cal.Rptr.3d 531; 246 P.3d 612 [Feb. 2011].

Card Act. We therefore reverse tlle contrary judgment of the Couti of Appeal ·
and remand for further proceedings consistent with our decision.
..
FACTS AND PROCEDURAL HISTORY

Because we are reviewing the sustaining of a demun·er, we assume as true
all facts alleged in the complaint. (Sheehan v. San Francisco 49ers, Ltd. (2009) ·
45 Cal.4th 992, 996 [89 Cal.Rptr.3d 594, 201 P.3d 472].)
In June 2008, plaintiff Jessica Pineda filed a complaint against defendant·
Williams-Sonoma Stores, Inc. 3 The complaint alleged the following;
Plaintiff visited one of defendant's California stores and selected an item·. ·
for purchase. She then went to the cashier to pay for the item with her credit.:.
card. The cashier asked plaintiff for her ZIP Code and, believing she was·.·:·
required to provide the requested information to complete the transaction, :
plaintiff provided it. The cashier entered plaintiff's ZIP Code into the·:'
electronic cash register and then completed the transaction. At the end of the·,
transaction, defendant had plaintiff's credit card number, name, and ZIP Code ··
recorded in its database.
·
Defendant subsequently used customized computer software to perfornt ·
reverse searches from databases that contain millions of names, e~mail:::
addresses, telephone numbers, and street addresses, and that are indexed in a'::.:
manner resembling a reverse telephone book. The software matched plain~·. :
tiff's name and ZIP Code with plaintiff's previously undisclosed address;
giving defendant the information, which it now maintains in its own aat:amtSe;
Defenda,nt uses its database to market products to customers and may
sell the information it has compiled to other businesses. ·
Plaintiff filed the matter as a putative class action, alleging defendant
violated section 1747.08 and the unfair competition law (UCL) (Bus. &
Code, § 17200 et seq.). She also assetted an invasion of privacy
Defendant demurred, arguing a ZIP Code is not "personal
information" as that phrase is used in section 1747.08, that plaintiff
standing to bring her UCL claim, and that the invasion of privacy claim
for, among other reasons, failure to allege all necessary elements.
3

According to its Web site, Williams-Sonoma is "the premier specialty retailer of
furnishings and gourmet cookware in the United States.'' (Williams-Sonoma, About
<http://www. williams-sonoma.com/customer·service/about-us.html> [as of Feb. 10, 201
The company operates "more than 250 stores nationwide, a direct-mail business that atsLnuuw'
millions of catalogs a year, and a highly successful e-commerce site.'' (Ibid.)

APP-37

APPENDIX I
PINEDA

v.

WrLUAMS~SoNoMA SroREs, INc.

51 Cal.4th 524; 120 Cal.Rptr.3d 531; 246 P.3d 612 [Feb. 2011]

529

conceded the demurrer as to the UCL claim, and the trial court subsequently
sustained the demurrer as to the remaining causes of action without leave to
amend. As for the Credit Card Act claim, the trial court agreed with
defendant and concluded a ZIP Code does not constitute Hpersonal identifica~
tion infonnation" as that term is defined in section 1747.08.

e
1)

The Court of Appeal affirmed in all respects. With respect to the Credit Card
Act claim, the Court of Appeal relied upon Party City Corp. v. Superior Court
(2008) 169 Cal.App.4th 497 [86 Cal.Rptr.3d 721.] (Party City), which similarly concluded a ZIP Code, without more, does not constitute personal
identification information. 4
Plaintiff sought our review regarding both her Credit Card Act claim and
her invasion of privacy cause of action. We granted review, but only of
plaintiff's Credit Card Act claim. 5
DlSCOSSION

(2) We independently review questions of statutory construction.
(Imperial Merchant Services, Inc. v. Hunt (2009) 47 Cal.4th 381, 387 [97

Cal.Rptr.3d 464, 212 P.3d 736].) In doing so, we look first to the words of a
statute, "because they generally provide the most reliable indicator of legisla~
tive intent." (Hsu v. Abbara (1995) 9 Ca1.4th 863, 871 [39 Cal.Rptr.2d 824,
891 P.2d 804].) We give the words their usual and ordinary meaning
(Lungren v. Deukrnejian (1988) 45 Cal.3d 727, 735 [248 Cal.Rptr. 115,
755 P.2d 299]), while construing them in light of the statute as a whole and
4

Both opinions wer!;j issued by Division One of the Fourth Distl'ict Court of Appeal.
In its answer bl'ief, defendant argues our jurisdiction to grant review lapsed under California
Rules of Court, rule 8.512(b). Under the rule, we may order review within 60 days aft~r ,a
petition for review is filed. (ibid.) Before the 60 days have expiredi we may extend the time in
which to consider review, to a date not later than 90 days after a petition was filed. (Ibid.) If
we have not ruled on the petition within the time allowed, it is deemed denied. (Ibid.)
The docket shows plaintiff's petition for review was filed on November 25, 2009. On
February 4, 2010, after 60 days had already run, an order was entered extending time for
review to February 23, 2010, 90 days after the petition was filed. The order was entered nunc
pro tunc as of January 22, 2010, a date before the odginal 60·day window had expired.
Defendant contends such a nunc pro tunc order was invalid. We disagree.
The petition was otiginally due to be considered prior to the expiration of the 60 days.
Concluding we needed more time, we put the matter over to a later petitions conference. The
act of putting the matter over necessarily included our extending time for review. However,
the clerk inadvertently failed to enter an order reflecting that act. Under the circumstances, the
nunc pro ttmc order merely caused the record to show something that was actually done but
that was mistakenly not entered in the record at the time the act was done. Thus, the use of a
nunc pro tunc order was appropriate and our subsequent grant of review on February 10, 2010,
was within this court's jurisdiction. (See Cowdery v. London & San Francisco Bank (1903) 139
Cal. 298, 306 [73 P. 196].)
.
.

5

APP-38

APPENDIX I
530

.

PJNEoA

v.

WILLIAMs~SoNoMA STORES,

INc .·

51 Ca1.4th 524; 120 Cal.Rptr.3d 531; 246 P.3d 612 [Feb. 2011j :

the statute's purpose (Walker v. Superior Court (1998) 47 Ca1.3d 112, 124
[253 Cal.Rptr. 1, 763 P.2d 852]). "In other words, '"we do not construe
statutes in isolation, but rather read every statute 'with teference to the entire
scheme of law of which it is part so that the whole may be harmonized and
retain effectiveness.' " ' " (Smith v. Superior Court (2006) 39 Cal. 4th 77, 83
[45 Cal.Rptr.3d 394, 137 P.3d 218].) We are also mindful of."the general rule
that civil statutes for the protection of the public are, generally, broadly· :·.
construed in favor of that protective purpose." (People ex rel. Lungren v. . ·
Superior Court (1996) 14 Ca1.4th 294, 313 [58 Cal.Rptr.2d 855, 926 P.2d
1042] (Lungren); see Florez, supra, 108 Cal.App.4th at p. 450 [liberally ·
construing former § 1747.8, now § 1747.08].) "If there is no ambiguity in the· ·
language, we presume the Legislature meant what it said and the plain ·
meaning of the statute governs." (People v. Snook (1997) 16 Cal.4th 1210, · ··::
1215 [69 Cal.Rptr.2d 615, 947 P.2d 808].) "Only when the statute's language : '.'
is ambiguous or susceptible of more than one reasonable intetpretation, may . •
the court turn to extrinsic aids to assist in interpretation." (Murphy v. Kenneth '· ·.·
Cole Productions, Inc. (2007) 40 Cal.4th 1094, 1103 [56 Cal.Rptr.3d 880, ·
155 P.3d 284].) Our discussion thus begins with the words of section
1747.08.
(3) Section 1747.08, subdivision (a) provides, in pertinent part, "(N]o ·
person, firm, partnership, association, or cotporation that accepts credit cards .
for the transaction of business shall ... : [~[] ... ['][] (2) Request, or require as.· :·
a condition to accepting the credit card· as payment in full or in part for goods ·. ·.·
or services, the cardholder to ·provide personal identification information·; .: ·
which the person, finn, pattnership, association, or cotporation accepting the·
credit card writes, cap:ses to be written, or otherwise records upon the credit .·
card transaction form or otherwise." (§ 1747.08, subd. (a)(2), italics added.)6 ·
Subdivision' (b) defines personal identification information as "information. .
concerning the cardholder, other than information set forth on the credit card, ·.·
and including, but not limited to, the cardholder's address and telephone .
number." (§ 1747.08, subd. (b).) Because we must accept as true plaintiff's .· :
allegation that defendant requested and then recorded her ZIP Code, the · ·.
outcome of this case hinges on whether a cardholder's ZIP Code, without· · •
more, constitutes personal identification information within the meaning of · .:
section 1747.08. We hold that it does.
·· .

6

Section 1747.08 contains some exceptions, inclucllng when a credit card is being used as a. ·
deposit or for cash advances, when the entity accepting the card .is contractually required to
provide tbe information to complete the transaction or is obligated to record the information .
under federal law or regulation, or when the information is required for a purpose incidental to but .'·
related to the transaction, such as for shipping,, delivery, servicing, or installation. (!d., subd. (c).).·

APP-39

APPENDIX I
.·PINEDA v. Wrr,LIAMs~SoNOMA STORES, INc.
.51 Ca1.4th 524; 120 Cal.Rptr.3d 531; 246 P.3d 612 {Feb. 2011]

531

Subdivision (b) defines personal identification information as "information

· concerning the cardholder . . . including, but not limited to, the cardholder's
· address and telephone number.': (§ 1747.08, subd. (b), italics added.) "Con~
cerning" is a broad term meanihg "pertaining to; regarding; having relation
to; (or] respecting ...."(Webster's New Internat. Diet. (2d ed. 1941) p. 552.)
A cardholder's ZIP Code, which refers to the area where a cardholder works
or lives (see DMM, supra, ch. 602, subtopic 1.8.1 <http://pe.usps.com/text/
dmm300/602.htm> [as of Feb. 10, 2011] [each U.S. post office is assigned at
least one unique five~digit ZIP Code]), is certainly information that pertains to
or regards the cardholder.
·
In nonetheless concluding the Legislature did not intend for a ZIP Code,
· without more, to constitute personal identification information, the Court of
Appeal pointed to the enul}.lerated examples of such information in subdivision
(b), i.e., "the cardholder's address and telephone number." (§ 1747.08,
subd. (b).) Invoking the doctrine ejusdem generis, whereby a "general term
ordinarily is understood as being ' "restricted to those things that are similar
to those which are enumerated specifically" ' " (Costco Wholesale Corp. v.
.Superior Court (2009) 47 Cal.4th 725, 743 [101 Cal.Rptr.3d 758, 219 P.3d
736] (cone. opn. of George, C. J.)), the Court of Appeal reasoned that an
address and telephone number are "specific in nature regarding an individual." By contrastj the court continued, a ZIP Code pertains to the group of
individuals who live within the ZIP Code. Thus, the Court of Appeal
concluded, a ZIP Code, without more, is unlike the other terms specifically
identified in subdivision (b) .
. (4) There are several problems with this reasoning. First, a ZIP Code is
readily understood to be part of an address; when one addl'esses a letter to
·another person, a ZIP Code is always includec,l. The question then is whether
the Legislature, by providing that "personal identification information" includes ''the cardholder's address" (§ 1747.08, subd. (b)), intended to include
components of the address. The answer must be yes. Otherwise, a business
could ask not just for a cardholder's ZIP Code, but also for the cardholder's
street and city in addition to the ZIP Code, so long as it did not also ask for
the house number. Such a construction would render the statute's protections
hollow. Thus, the word "address" in the statute should be construed as
encompassing not only a complete address, but also its components.
Second, the court's conclusion rests upon the assumption that a complete
address and telephone number, unlike a ZIP Code, are specific to an
individual. That this assumption holds true in all, or even most, instances is
doubtful. In the case of a cardholder's home address, fot: example, the

APP-40

APPENDIX I

532

·

PINEDA

v.

WILLIAMs~SoNOMA STOREs, INc.

51 Cal.4th 524; 120 Cal.Rptr.3d 531; 246 P.3d 612 [Feb. 2011]
infonnation may pertain to a group of individuals living in the same ·.
household. Similarly, a home telephone number might well refer to more than ·
one individual. The problem is even more evident in the case of a cardhold- ·
er's work address or telephone number-such infonnation could easily·
pertain to tens, hundreds, or even thousands of individuals. 7 Of course, section
1747. 08 explicitly provides that a cardholder's address and telephone number
constitute personal identification information (id., subd. (b)); that such information might also pertain to individuals other than the cardholder is immate~ .
rial. Similarly, that a cardholder's ZIP Code pertains to individuals in addition
to the cardholder does not render it dissimilar to an address or telephone ·
number.
·
More significantly, the Court of Appeal ignores another reasonable inter'" .·
pretation of what the enumerated terms in section 1747.08, subdivision (b)
have in common, that is, they both constitute infonnation unnecessary to the
sales transaction that, alone or together with other data such as a cardholder's
name or credit card number, can be used for the retailer's business purposes; .
Under this reading, a cardholder's ZIP Code is similar to his or her address or ·:
telephone number, in that a ZIP Code is both unnecessary to the transaction ·
and can be used, together with the cardholder's name, to locate his or her full .
address. (Levitt & Rosch, Putting Internet Search Engines to New Uses (May
2006) 29 L.A. Law. 55, 55; see Solove, Privacy and Power: Computer,' .
Databases and Metaphors for Information Privacy (2001) 53 Stan. L.Rey, ·
1393, 1406-1408.) The retailer can then, as plaintiff alleges defendant has ·
done here, use the accumulated information for its own purposes or sell the.
information to other businesses.
·
There are several reasons to prefer this latter, broader interpretation over·
the one adopted by the Court of Appeal. First, the interpretation is more ·. ·
consistent with the rule that courts should liberally construe remedial statute~:... ·
in favor of their protective purpose (Lungren, supra, 14 Ca1.4th at p. 313)r.
which, in the case of section 1747.08, includes addressing "the ·misuse of:.
personal identification information for, inter alia, marketing purposes.'~! ·
(Absher v. AutoZone, Inc. (2008) 164 Cal.App.4th 332, 345 [78 Cal.Rptr.3d ..:
817] (Absher).) 8 The Court of Appeal's interpretation, by contrast, waul~·:'
7 Party City, upon which the Court of Appeal opinion heavily relies, assumes that :-a':·:
cardholder's work address or telephone number constitutes personal identification information;:.
(Party City, supra, 169 Cal.App.4th at p. 518.) While we express no opinion on this point, we, ..
acknowledge that nothing in section 1747.08, subdivision (b), explicitly limits its scope to a:'·:
cardholder's home address or telephone number.
·. ·
8 Party City, supra, 169 Cal.App.4th at pages 51Q-511, by contrast, concludes that
1747.08, subdivision (b), should be strictly construed un,der the rule for construing
statutes because violations of section 1747.08 are subject to a "mandatory civil penalty."
disagree. First, as we held in Linder v. Thrifty Oil Co. (2000) 23 Cal.4th 429, 448
Cal,Rptr.2d 179, 2 P.3d 27], section 1747.08, subdivision (e), "does not mandate·

APP-41

APPENDIX I
'p)J'1BPA

v.

WlLUAMs~SoNOMA SroREs, INc.

.• 51 Cal.4tb 524; 120 Cai.Rptr.3d 531; 246 P.3d 612 [Feb. 2011]

533

.permit retailers to obtain indirectly what they are clearly prohibited from
obtaining directly, "end~running" the statute's clear purpose . This is so
,·because infonnation that can be permissibly obtained under the Court of
; Appeal's construction could easily be used to locate the cardholder's com"
··plete address or telephone number. Such an interpretation would vitiate the
• statute's effectiveness. Moreover, that the Legislature intended a broad read.• ing of section 1747.08 can be inferred from the expansive language it
. employed, e.g., "concerning" in subdivision (b) and "any personal identifica~
: ·tion information" in subdivision (a)(l). (Italics added.) The use of the broad
\vord "any" suggests the Legislature did not want the category of information
·
under the statute to be narrowly construed.
. , (5) Second, only the broader interpretation is consistent with section
. . . · 1747.08, subdivision (d). Subdivision (d) pem1its businesses to ''requir[e] the
•.•.· cardholder, as a condition to accepting the credit card . . . , to provide
····reasonable forms of positive identification, which may include a driver's
< license or a Califomia state identification card, ... provided that none of the
'· information contained thereon is written or recorded . . . ." (§ 1747.08,
, subd. (d), italics added.) Of course, driver's licenses and state identification
.· cards contain individuals' addresses, including ZIP Codes. (Veh. Code,
·.· • §§ 12811, subd. (a)(l)(A), 13005, subd. (a); People v. McKay (2002} 27
·•. ~al.4th 601, 620 [117 Cal.Rptr.2d 236, 41 P.3d 59].) Thus, under Civil Code
s#ction 1747.08, subdivision (d), a business may require a cardholder to
:· · prOYide a driver's license, but it may not record any of the information on the
./: iicense, including the cardholder's ZIP Code. Under the Court of Appeal's
'.• interpretation, the Legislature inexplicably permitted in section 1747.08,
. subdivision (a)(2), what it explicitly forbade in subdivision (d)~the request~
·: irig and recording of a ZIP Code.9 We decline to conclude such an inconso~
·· #ant result was intended. (Absher, supra, 164 Cal.App.4th at p. 343 ["A
... statute open to more than one interpretation Should be interpreted so as to
) '"avoid anomalous or absurd results." ' [Citations.r'].) 10
·

>

penalties; rather, it sets maximum penalties of $250 for the first violation and $1,000 for each ·
•·.:· s~bsequent violation:' Second, "the rule of strict construction of penal statutes has generally
. · been applied in this state to criminal statutes, rather than statutes which prescribe only civil
·
· iii:onetary penalties.'' (Lungren, supra, 14 Cal.4th at p. 312.)
9
. . '··
Defendant points out that a cardholder's name, which all parties agree can permissibly be
; obtained ·by the retailer, also appears on a driver's license. This is true, albeit hrelevant, as
:.. subdivision (b) explicitly excludes information appearing . on the credit card, such as a
.•. ··cardholder's name, from the definition of personal identification information. (§ 1747.08,
··: subd. (b).)
10
·•···· ..
The Court of Appeal did not discuss subdivision (d) of section 1747.08. While Party City,
<· siipra, 169 Cal.App.4th at page 518, did briefly mention the issue, the court dismissed it
·.' without explanation.
.
·

APP-42

APPENDIX I

534

·
PJNEDA v. WaLIAMs~SoNOMA SmREs; INc·
5( Cal.4th 524; 120 Cal.Rptr.3d 531; 246 P.3d 612 [Feb. 2011j .:

(6) In light of the foregoing, and particularly given the internal inconsistency that would ruise under the Court of Appeal's altemate construction, we
conclude that the only. reasonable interpretation of section 1747.08 is that ·
personal identification information includes a cardholder's ZIP Code: We
disapprove Party City Corp. v. Superior Court, supra, 169 Cal.App.4th 497, ·
to the extent it is inconsistent with our opinion.
·
Even were we to ·conclude that the alternative interpretation urged · by · '
defendant and adopted by the Court of Appeal was reasonable, the legislative :
history of section 1747.08 offers additional evidence that plaintiff's construe~
tion is the correct one.1 1 The Credit Card Act was enacted in 1971 to
"impo~e[] fair business practices for the protection of the consumers." .
(Young v. Bank of America (1983) 141 Cal.App.3d 108, 114 [190 Cal.Rptr..
122].) It made "major changes in the law dealing with credit card practices by :.
prescribing procedures for billing, billing errors, dissemination of false credit ·
information, issuance and unauthorized use of credit cards." (Sen. Song,
sponsor of Sen. Bill No. 97 (1971 Reg. Sess.) enrolled bill mem. to Governor ·.
Reagan (Oct. 12, 1971) p. 1.) As originally enacted, however, the Credit Card··
Act did not contain section 1747.08 or any analogous provision.
In 1990, the Legislature enacted former section 1747.8 12 (Assem. Bili·:
No. 2920 (1989·~1990 Reg. Sess.) § 1), seeking "to address the misuse oC
personal identification infom1ation for, inter alia, marketing purposes, and ··..
[finding] that there would be no legitimate need to obtain such information '
from credit card customers if it was not necessary to the completion of the .· :
credit card transaction." (Absher, supra, 164 Cal.App.4th at p. 345.) TI1e ·
statute's overriding l)urpose was to "protect the personal privacy of consum~. •
ers who pay for transactions with credit cards." (Assem. Com. on Finance ·
and Ins., Analys~s of Assem. Bill No. 2920 (1989-1990 Reg. Sess.) as
amended Mar. 19, 1990, p. 2.)
·
The Senate Committee on Judiciary's analysis highlighted the motivating.·.
concerns: "The Problem [<JO ••• [Cj[] Retailers acquire this additional personar
information for their own business purposes~for example, to build mailing · .
and telephone lists which they can subsequently use for their own in~ house· ·.
marketing efforts, or sell to direct~ mail or tele-marketing specialists, or to ·. ·
u The Court of Appeal did not discuss the legislative history of section 1747.08. And, while
the opinion in Party City, .wpra, 169 Cal.App.4th at pages 514-516, has a section titled :

"Legislative History Arguments,'' the cowt did not actually cite or discuss any of the statute's ·
legislative history.
.
.
12 The statute was later amended and renumbered as section 1747.08. (Stats. 2004, ch. 183; ..
§ 29, p. 981.)

APP-43

APPENDIX I

v.

WlLLIAMs~SoNOMA

StOREs, INc.

524; 120 Cal.Rptr.3d 531; 246 P.3d 612 [Feb. 2011]

535

others." (Sen. Com. on Judiciary, Analysis of Assem. Bill No. 2920
(1989-1990 Reg. Sess.) as amended June 27, 1990, pp. 3-4.) To protect
consumers, the Legi~lature sought to prohibit businesses from "tequiring
information that merchants, banks or ctedit card companies do not require or
need." (Assem. Com. on Finance and Ins., Analysis of Assem. Bill No. 2920
(1989-1990 Reg. Sess.) as amended Mar. 19, 1990, p. 2.)
·:A year later, in 1991, the Legislature 'amended fanner section 1747.8.
(Assem. Bill No. 1477 (1991-1992 Reg. Sess.) § 2.) Two of the changes shed
further light on the Legislature's intent regarding fanner section l747.8's
scope. First, the Legislature added a provision (former § 1747.8, subd. (d))
(former subdivision (d)) substantially similar to the subdivision (d) now in
section 1747.08, permitting businesses to require cardholders to provide
identification so long as none of the information contained thereon was
recorded. (Stats. 1991, ch. 1089, § 2, p. 5042.) The adoption of former
subdivision (d) was described as "a clarifying, nonsubstantive change." (State
and Consumer Services Agency, Enrolled Bill Rep. on Assem. Bill No. 1477
(1991-1992 Reg. Sess.) Sept. 9, 1991, p. 3.) Defendant argues that, because
the adoption of former subdivision (d) was intended to be nonsubstantive, it
is . irrelevant to our inquiry here. We draw the opposite conclusion. That
former subdivision (d) was con~idered merely clarifying and nonsubstantive
suggests the Legislature understood former section 1747.8 to already prohibit
the requesting and recording of any of the information, including ZIP Codes,
contained on driver's licenses and state identification cards.

r

'.
l

i

,,'

Second, the 1990 version of former section 1747.8 forbade businesses from
"requir[ing] the cardholder, as a condition to accepting the credit card, to
provide personal identification information . . . .'' (Stats. 1990, ch. 999,
§ 1, p. 4191.) In 1991, the provision was broadened, forbidding businesses
from "[r]equest[ing], or requir[ing] as a condition to accepting the credit
card . . . , the cardholder to provide personal identification information . . .. "
(Stats. 1991, ch. 1089, § 2, p. 5042, italics adde~.) "The obvious purpose of
the 1991 amendment was to prevent retailers from 'requesting' personal
identification information and then matching it with the consumer's credit
card number." (Florez, supra, 108 Cal.App.4th at p. 453.) "[T]he 1991
amendment prevents a retailer from making an end~run around the law by
claiming the customer furnished personal identification data 'voluntarily.' "
(Ibid.) That the Legislature so expanded the scope offonner section 1747.8 is
further evidence it intended a broad consumer protection statute.
To be sure, the legislative history does not specifically address the scope of
section 1747.08, subdivision (b) or whether the Legislature intended a ZIP
Code, without more, to constitute personal identification informatiqn. How~
ever, the legislative history of the Credit Card Act in general, and section

APP-44

APPENDIX I

536

·

PINEDA

v.

WILLlAMs.:.SoNOMA STORES,

INc.

51 Cal.4th 524; 120 Cal.Rptr.3d 531; 246 P.3d 612 [Feb. 2011]

1747.08 in particular, demonstrates the Legislature intended to provide robust
consumer protections by prohibiting retailers from soHciting and recording
information about the cardholder that is unnecessary to the credit card
transaction. Plaintiff's interpretation of section 1747.08 is the one that is most
consistent with that legislative purpose.
Thus, in light of the statutory language, as well as the legislative history
and evident purpose of the statute, we hold that personal identification
infonnation, as that tennis used in section 1747.08, includes a cardholder's
ZIP Code.
(7) We briefly address defendant's contention that this construction
violates due process. First, defendant argues such an interpretation is unconstitutionally oppressive because it would result in penalties "approach[ing]
confiscation of [defendant's] entire business . . . . " Not so. As we have.· ·
previously noted (fn. 8, ante at p. 532), the statute "does not mandate fixed
penalties; rather, it sets maximum penalties of $250 for the first violation and..
$1,000 for each subsequent violation." (Linder v. Thrifty Oil Co., supra, 23,
Cal.4th at p. 448.) "Presumably this could span between a penny (or even the :
proverbial peppercorn we all encountered in law school) to the maximum · ·
an1ounts authorized· by the statute." (The TJX Companies, Inc. v. Superior.·
Court (2008) 163 Cal.App.4th 80, 86 [77 Cal.Rptr.3d 114].) Thus, the amount ·
of the penalties awarded rests within the sound discretion of the trial court.
(Ibid.)

Second, defendant contends that plaintiff's interpretation renders the statute
unconstitutionally vague and, thus, our adoption of that interpretation should
be prospectively applied only. We are not persuaded. In our view, the statute
provides constitutionally adequate notice of proscribed conduct, including its .
reference to a cardholder's address as an example of personal identification .·.
information (§ 1747.08, subd. (b)) as well as its prohibition against retailers.'
recording any of the information contained on identification cards (id., . .
subd. (d)). Moreover, while Party City, supra, 169 Cal.App.4th 497, reached.·
a contrary conclusion, both defendant's conduct and the filing of plaintiffs· ·
complaint predate that decision; it therefore cannot be convincingly argued .
that the practice of asking customers for their ZIP Codes was adopted in. ·.
reliance on Party City. Indeed, it is difficult to see how a single decision by ··
an infedor court could provide a basis to depart from the assumption of .·
retrospective operation. (See People v. Guerra (1984) 37 Cal.3d 385, 401 [208
Cal.Rptr. 162, 690 P.2d 635], disapproved on another ground in People v. ·.
Hedgecock (1990) 51 Cal.3d 395, 409-410 [272 Cal.Rptr. 803, 795 P.2d
1260].) In sum, defendant identifies no reason that would justify a departure :
from the usual nile of retrospective application. (See Grafton Partners v..
Superior Court (2005) 36 Cal.4th 944, 967 [32 Cal.Rptr.3d 5, 1'16 P.3d 479].)

APP-45

APPENDIX I
PJNEOA v. WILLIAMS~SoNoMA SroREs, INc.
. 51 Ca1.4th 524; 120 Cal.Rptr.3d 531; 246 P.3d 612 [Feb. 2011]

537

PISPOSITlON

The judgment of the Court of Appeals is reversed and the case is remanded
for further proceedings consistent with this decision.
Cantil~Sakauye, C. J., Kennard, J., Baxter, J., Werdegar, J., Chin, J., and
Corrigan, J., concurred.

APP-46

APPENDIX J

REPORTS· 01? CASES
DETERMINED IN

THE COURTS OF APPEAL
OF THE.
STATE OF CALIFORNIA

May 5, 2011, to June 1, 2011

. EDWARD

w. JESSEN

Reporter of Decisions

VOLUME 195 .. 4th

LexisNexis®

APP-47

APPENDIX J

Official Califol·nia Appellate Reports~The Courts of Appeal, and Appellate Divi~
sions of the Superior Court is published by Matthew Bender@, 1275 Broadway,
Albany, NY 12204~2694.
Opinion summaries, headrtotes, tables, other editorial features, classification headings
for headnotes, and related references and statements prepared by LexisNexis®,
Copyright pending, 2012 Matthew Bender & Company, Inc., a member of the
LexisNexis Group. All rights reserved.· Ptinted in the United States of America.
Except as permitted under the United States Copyright Act of 1976, no part of this
publication may be reproduced or distributed in any form or by any means, or stored
in a database or retrieval system, without the prior written consent of the publisher.
LexisNexis and the Knowledge Burst logo are trademarks of Reed Elsevier Properties Inc., used under license. Matthew Bender is a registered trademark of Matthew
Bender Properties Inc.

ISBN

978-0~3270-4395·9

APP-48

APPENDIX J

·.;

. 986

.

FoLGELSTROM v. LAMPs PLUs, INc
195 Cal.App.4th 986; 125 CaLRptr.3d 260 [Apr. 2011]

FoLGBLSTROM

v. LAMPs Pws, Il

195 Cal.App.4th 986; 125 CaLF
IIEADNOTES

[No. B221376. Second Dist., Div. Five. Apr; 29, 2011.]
JAMES C. FOLGELSTROM, Plaintiff and Appellant, v.
LAMPS PLUS, INC., Defendant and Respondent.

.· SOMMARY·

The tdal court entered judgment in .favor of a retailer following its
demurrer to a customer's complaint that alleged causes of a{;tion for violation
of the Song~Beverly Credit Card Act of 1971 (Civ. Code, § 1747 et seq.),
invasion of the customer's common law and constitutional rights to privacy,
and violation of the unfair competition law (UCL) (Bus. & Prof. Code,
· § 17200). The custorner alleged that the retailer routinely asked its customers
for their ZIP codes dwing credit card transactions so that it can obtain their ·
home addresses for the purpose of mailing marketing materials to them.
(Superior Comt of Los Angeles County, JCCP No. 4532, Anthony J. Mohr,
Judge.)
.

The Court of Appeal reversed the judgment and temanded the case for
· . · further proceedings. The court observed that requesting and recording a ·
.· ... cardholder's ZIP code, without more, violates the Song-Beverly Credit Card
..· Act. Accordingly, the trial court erred in sustaining the retailerjs demw1·e.r to
·.
· the customer's cause of actio~1 under the Song-Beverly Credit Card Act.
However, the trial court properly sustained the demurrers addressed to the
·additional causes of action alleged by the customer. Even if the cou1t
assumed that the customet had a protected privacy interest in his horne
address, the conduct of which he complained did not constitute a serious
invasion of pdvacy. The supposed invasion of privacy essentially consisted of
the retailer. obtahting the ·customer's address without his knowledge or
pennissioi:J., and using it to mail him coupons and other advertisements. That
· · <·· conduct is not an egregious breach of social norms, but routine commercial
·•·>·i: •: •. · behavior. As to the customer's common law tort of invasion of privacy, there
:<;,> ·was no a1legation that the retailer used the address once obtained for an .
.offensive or improper purpose. Finally, as to the customer's UCL claim, he
,
did not allege that he suffered an economic injury as a result of the retailer's
'.: . challenged business practice. (Opinion by Armstrong, J., with Turner, P. J.,
and Mosk, J., concuning.)
., :.
'\

Credit Cards § l-S1
Requesting and Recon
recording a cardholder'
Beverly Credit Card Ac
ingly, in a case in whi
asked its customers for t
that it could obtain the
marketing materials tq
retailer's demurrer to th1
[Cal. Fonns of Pleading
and Loans, § 127.28; Sil
Unfair Competition and
mary of Cal. Law (lOth
Summary of Cal. Law
Summary of Cal. Law (

(2) Constitutional Law § ~
Violation-·Elements ol
The elements of a ca
Constitution's guarante~
privacy interest, (2) a 1'1
stances, and (3) conducl
privacy. Whether a leg;
given case is a questior
plaintiff has a reasonabl<
whether the defendant's
are mixed questions of
show no reasonable exp
privacy interests, the c
matter of law. Actiomi
serious in their nature, s
an egregious breach of 1

Constitutional Law § s:
Residential Interests.nized in a number of
individuals have a subs!
right to avoid unwelcon
home. However, a retai
er's knowledge or perm
customer, does not vioh

. ·.,·

APP-49

APPENDIX J

APP-50

APPENDIX J

990

FoLGBLSTRoM v. LAMPs Pws, INc~ · ·
195 Cal.App.4th 986; 125 Cal.Rptr.3d 260 [Apr. 2011]

proper on any lawful grounds raised in the demurrer. (DiPirro v. American

lsuzu Motors, Inc. (2004) 119 Cal.App.4th 966, 972 [14 Cal.Rptr.3d 787].) ·
DISCUSSION
(1) Following Party City, supra, 169 Cal.App.4th 497 a second case
concerning the same issue was heard by the same District Court of Appeal; it
· adopted the reasoning of Party City to rule that a ZlP code is not "personal
identification information'' within the meaning of the Credit Card Act. The
California Supreme Court grm1ted review in the latter case and, on February
11, 2011, issued its opinion holding that "requesting and recording a cardholder's ZIP code, without more, violates the Credit Card Act." (Pineda,
supra, 51 Cal.4th at pp. 527-528.) Both parties agree, as do we, that based on
Pineda, this comt must reverse the judgment in this case and order the trial
court to ovem1le Lamps Plus's demurrer to plaintiff's Credit Card Act claim.
We m·e thus left to decide the propriety of the trial court's order sustaining
Lamps Plus's demurrer to the remaining three causes of action.

1. Violation of the state constitutional right to privacy
(2) The elements of a cause of action for violation of the California
Constitution's guarm1teed right to privacy are "(1) a legally protected privacy
interest; (2) a reasonable expectation of privacy in the circumstances; and
(3) conduct by defendant constituting a serious invasion of privacy." (Hill v.
National Collegiate Athletic Assn. (1994) 7 Cal.4th 1, 39.:.40 [26 CaLRptr.2d
834, 865 P.2d 633].) "Whether a legally recognized privacy interest is present
in a given case is a question of law to be decided by the court. [Citations.]
Whether plaintiff has a reasonable expectation of privacy in the circumstances
and whether defendant's conduct constitutes a serious invasion of privacy are
mixed questions of law and fact. If the undisputed material facts show no
reasonable expectation of privacy or an insubstantial impact on privacy
interests, the question of invasion may be adjudicated as a matter of law."
(ld. at p. 40.)

Residential privacy interests have been recognized in a number of cases.
(Planned Parenthood Golden Gate v. Superior Court (2000) 83 Cal.App.4th
347, 359 [99 Cal.Rptr.2d 627] and cases cited therein.) "Courts have
frequently recognized that individuals have a substantial interest in the
privacy of their home." (Ibid.) As the United States Supreme Court has
observed, "The unwilling listener's interest in avoiding unwanted communication ... is an aspect of the broader 'right to be let alone' that one of our
wisest Justices characterized as 'the most comprehensive of rights and the
right most valued by civilized men.' Olmstead v. United States, 277 U.S. 438,

•··. :FoLGELSTROM

v.

LAMPs

Pws,

195 Cal.App.4th 986; 125 Cal.

478 [72 LEd. 944, 48 S.C
right to avoid unwelcome
home . . . ." (Hill v. Col(
[147 L.Ed;2d 597, 120 S.Ct;
Plaintiff relies on just tw<
supra, 7 Cal.4th 1 and Pla1
supra, 83 Cal.App.4th 347,
his constitutional right to p1
·remotely similar to those pr
an tmconstitutional invasion
that they provide urine sam
. offers no explanation of wt
address based on the Supre
function under the watchful
Planned Parenthood con
infonnation by means of ju<
reviewing a discovery ord'
protesters of the names, ho1
clinic employees and vohin1
abortion clinic worker has a
abortion clinic protester wi
conclusion that this comt sl
plaintiff to not receive uns<
privacy interests at issue aJ
concern an individual's add

Additional cases finding
concern public disclosure oJ
officers' Intemet disseminati
(2010) 181 Cal.App.4th 8
disclosure of a patient's
Cal.App.3d 1128 [277 Cal.
mental health records (Susc
Cal.Rptr.2d 42]). Plaintiff d
1

"This common··law 'right' is 1
choose to protect in certain sitU!
[19 L.Ed.2d 576, 88 S.Ct. 507] (1

APP-51
APP-55

APPENDIX J
992

FOLGELSIROM V. LAMPS

PLUs, INc.

195 Cal.App.4th 986; 125 Cal.Rptr.3d 260 [Apr. 2011]

the legal analysis of the privacy interests at stake in them weighs in favor of a .
finding of a legally protected privacy interest ln this case.
(3) In any event, even if we assume that plaintiff has a protected privacy
interest in his home address, we conclude that the conduct of which plaintiff
complains does not constitute a "serious" invasion of privacy.

''Actionable invasions of privacy must be sufficiently serious in theit
nature, scope, and actual or potential impact to constitute an egregious breach
of the social norms underlying the privacy right." (Hill v. National Collegiate
Athletic Assn., supra, 7 Cal.4th at p. 37.) Here, the supposed invasion of
privacy essentially consisted of Lamps Plus obtaining plaintiff's address
without his knowledge or permission, and using it to mail him coupons and
other advertisements. This conduct is not an egregious breach of social
nonns, but routine commercial behavior.

2.

FoLGELSTROM

LAMPS

Pws, I

As with the alleged cons1
sufficiently alleged an intrusi
· he complains does not meet
have found no case which i11
unwanted access to the pia
allege that the use of plainti
questionable the means em1
allegation that Lamps Plus u:
improper purpose.
Finally, we note that plain
suggesting that Lamps Plus
victimized in an identity the
which we may disregard on
Angeles, supra, 27 Cal.4th a1
3.

Common law tort of invasion of privacy

Plaintiff alleged that Lamps Plus's conduct of obtaining his ZIP code under
false pretenses and using it for its own marketing purposes constituted an
intrusion subjecting it to liability for invasion of his common law right to
privacy.

v.

l95 Cal.App.4th 986; 125 Cal.l

Unfair competition

The ttial court sustained I
finding that he did not have
in fact, a requirement of the
The UCL prohibits ":
practice . . . . " (Bus. & P1
Proposition 64 in 2004} a pr
"only if he or she ~has suffe1
as a result of such unfair c1
§ 3; see also § 17203, as 1
Disability Rights v. Mervyn's
57, 138 P.3d 207].) As the
C01p. v. Superior Court (201
(5)

(4) As our Supreme Court explained in Shulman v. Group W
Productions, Inc. (1998) 18 Ca1.4th 200, 231 [74 Cal.Rptr.2d 843, 955 P.2d
469], California has. adopted the Restatement Second of Torts formulation of
the intrusionMinto-private-matters tort: "One who intentionally intmdes, physically or otherwise, upon the solitude or seclusion of anotl1e~· or ~is priva~e
affairs or concerns, is subject to liability to the other for mvaswn of h1s
privacy, if the intrusion would be hi~hly offensive to ~ reasonable person."

two elements: (1) intrusion into a pdvate place, conversation or matter, (2) in
a· manner highly offensive to a reasonable person." (Shulman, supra, at
p. 231.) "1b prove actionable intrusion, the plaintiff must show the defendant
penetrated some zone of physical or sensory privacy surrounding, or obtaine~
unwanted access to data about, the plaintiff. The tort is proven only 1f
the plaintiff had an objectively reasonable expectation of seclusion or
solitude in the place, conversation or data source." (Shulman v. Group W
Productions, Inc., supra, at p. 232, italics added.)

~-II''FT-1-''To-satisfy-the-narrowr-

64, a patty must now (1) est
sufficient to qualify as injuf)
that economic injury was tl
practice ... that is the grava:
Unlike in the typical UC
made a purchase or otherwis
allegedly unfair practices. F
fact" within the meaning of 1

APP-52

APPENDIX J
994

.

FoLGELSTROM

v.

LAMPS

Pws,

INc.

195 Cal.App.4th 986; 125 Cal.Rptr.3d 260 [Apr. 2011]

rights in his home address." Although he acknowledges that he did not suffer
an out~of-pocket monetary loss, he claims that he is entitled to "restitution of
the fair compensation for his personal infonnation" measured by the license
fee Lamps Plus paid to Experian to obtain the address. The argurnent lacks
merit.

FoLGELSTROM

v.

LAMPS

Pws,

195 Cal.App.4th 986; 125 Cal.

The judgment is reversed
consistent with this opinion.
· 'Turner, P. J., and Mosk, J

Plaintiff cites no authority in support of his novel argument that his address
is his intellecttlal prope1ty. Plaintiff did not create his address; rather, the
address was assigned by a governmental authority to identify pmticular
parcel of property and its location for purposes of, among others, public
safety, recordkeeping, tax collection and mail delivery. None of the· usual
incidents of propetty ownership, such as the right to sell, mortgage, or
transfer one's interest in property, adheres in an address. In short, plaintiff's
intellectual property rights are not implicated in this case.

a

On June 7, 2011, the opit

Moreover, even if plaintiff had an intellectual property interest in his
address, he does not explain how that interest has been economically
diminished by Lamps Plus. That is to say, the Supreme Court has made clear
that the injury-in-fact element of a UCL claim refers to an economic injury;
" 'a UCL plaintiff's "injury in fact" [must] specifically involve "lost money or
property."' " (Kwikset C01p. v. Superior Court, supra, 51 Cal.4th at p. 324,
quoting T1·oyk v. Farmers Group, Inc. (2009) 171 Cal.App.4th 1305, 1348,
fn. 31 [90 Cal.Rptr.3d 589].) The fact that the address had value to Lamps
Plus, such that the retailer paid Experian a license fee for its use, does not
mean that its value to plaintiff was diminished in any way.
Finally, we note that any claim that plaintiff is entitled to restitution on
account of the "sale'' of his address would presumably be directed to
Experian, the entity which sold the information, not to Lamps Plus, which
paid for it.
In sum, plaintiff does not allege that he suffered an economic injury as a
result of Lamps Plus's challenged business practice. Consequently, the trial
to
s UCL claim.
Lamps Plus moved to strike the portions of plaintiff's supplemental brief
which discuss Kwikset Cmp. v. Superior Court, supra, 51 Cal.4th 310, and
the injury~in-fact requirement of a UCL claim, an issue outside the scope of
our January 20, 2011 request for additional briefing, which was limited to the
issue of the effect of Pineda on resolution of this appeal. We deny the motion.
In the alternative, Lamps Plus requested an opportunity to file an additional
brief to address the Supreme Court's opinion in Kwikset. Given our resolution
of this appeal, we deny this request as well.

APP-53

APPENDIX K

§ 1747.08. Personal identification information; prohibition upon..., CA CIVIL § 1747.08

West's Annotated California Codes
Civil Code (Refs & Annos)
Division 3. Obligations (Refs & Annos)
Part 4. Obligations Arising from Particular Transactions (Refs & Annos)
Title 1.3. Credit Cards (Refs & Annos)
West's Ann.Cal.Civ.Code § 1747.08
§ 1747.08. Personal identification information; prohibition upon collection of data
upon credit card transaction form; exemptions; civil penalties and injunctive relief
Effective: October 9, 2011
Currentness
(a) Except as provided in subdivision (c), no person, firm, partnership, association, or corporation that accepts credit cards for
the transaction of business shall do any of the following:
(1) Request, or require as a condition to accepting the credit card as payment in full or in part for goods or services, the cardholder
to write any personal identification information upon the credit card transaction form or otherwise.
(2) Request, or require as a condition to accepting the credit card as payment in full or in part for goods or services, the cardholder
to provide personal identification information, which the person, firm, partnership, association, or corporation accepting the
credit card writes, causes to be written, or otherwise records upon the credit card transaction form or otherwise.
(3) Utilize, in any credit card transaction, a credit card form which contains preprinted spaces specifically designated for filling
in any personal identification information of the cardholder.
(b) For purposes of this section “personal identification information,” means information concerning the cardholder, other than
information set forth on the credit card, and including, but not limited to, the cardholder's address and telephone number.
(c) Subdivision (a) does not apply in the following instances:
(1) If the credit card is being used as a deposit to secure payment in the event of default, loss, damage, or other similar occurrence.
(2) Cash advance transactions.
(3) If any of the following applies:
(A) The person, firm, partnership, association, or corporation accepting the credit card is contractually obligated to provide
personal identification information in order to complete the credit card transaction.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

APP-54

APPENDIX K

§ 1747.08. Personal identification information; prohibition upon..., CA CIVIL § 1747.08

(B) The person, firm, partnership, association, or corporation accepting the credit card in a sales transaction at a retail motor
fuel dispenser or retail motor fuel payment island automated cashier uses the Zip Code information solely for prevention of
fraud, theft, or identity theft.
(C) The person, firm, partnership, association, or corporation accepting the credit card is obligated to collect and record the
personal identification information by federal or state law or regulation.
(4) If personal identification information is required for a special purpose incidental but related to the individual credit card
transaction, including, but not limited to, information relating to shipping, delivery, servicing, or installation of the purchased
merchandise, or for special orders.
(d) This section does not prohibit any person, firm, partnership, association, or corporation from requiring the cardholder, as
a condition to accepting the credit card as payment in full or in part for goods or services, to provide reasonable forms of
positive identification, which may include a driver's license or a California state identification card, or where one of these is not
available, another form of photo identification, provided that none of the information contained thereon is written or recorded
on the credit card transaction form or otherwise. If the cardholder pays for the transaction with a credit card number and does
not make the credit card available upon request to verify the number, the cardholder's driver's license number or identification
card number may be recorded on the credit card transaction form or otherwise.
(e) Any person who violates this section shall be subject to a civil penalty not to exceed two hundred fifty dollars ($250) for
the first violation and one thousand dollars ($1,000) for each subsequent violation, to be assessed and collected in a civil action
brought by the person paying with a credit card, by the Attorney General, or by the district attorney or city attorney of the
county or city in which the violation occurred. However, no civil penalty shall be assessed for a violation of this section if the
defendant shows by a preponderance of the evidence that the violation was not intentional and resulted from a bona fide error
made notwithstanding the defendant's maintenance of procedures reasonably adopted to avoid that error. When collected, the
civil penalty shall be payable, as appropriate, to the person paying with a credit card who brought the action, or to the general
fund of whichever governmental entity brought the action to assess the civil penalty.
(f) The Attorney General, or any district attorney or city attorney within his or her respective jurisdiction, may bring an action in
the superior court in the name of the people of the State of California to enjoin violation of subdivision (a) and, upon notice to the
defendant of not less than five days, to temporarily restrain and enjoin the violation. If it appears to the satisfaction of the court
that the defendant has, in fact, violated subdivision (a), the court may issue an injunction restraining further violations, without
requiring proof that any person has been damaged by the violation. In these proceedings, if the court finds that the defendant
has violated subdivision (a), the court may direct the defendant to pay any or all costs incurred by the Attorney General, district
attorney, or city attorney in seeking or obtaining injunctive relief pursuant to this subdivision.
(g) Actions for collection of civil penalties under subdivision (e) and for injunctive relief under subdivision (f) may be
consolidated.
(h) The changes made to this section by Chapter 458 of the Statutes of 1995 apply only to credit card transactions entered into
on and after January 1, 1996. Nothing in those changes shall be construed to affect any civil action which was filed before
January 1, 1996.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

APP-55

APPENDIX K

§ 1747.08. Personal identification information; prohibition upon..., CA CIVIL § 1747.08

Credits
(Formerly § 1747.8, added by Stats.1990, c. 999 (A.B.2920), § 1. Amended by Stats.1991, c. 1089 (A.B.1477), § 2, eff. Oct.
14, 1991; Stats.1995, c. 458 (A.B.1316), § 2. Renumbered § 1747.08 and amended by Stats.2004, c. 183 (A.B.3082), § 29.
Amended by Stats.2005, c. 22 (S.B.1108), § 14; Stats.2011, c. 690 (A.B.1219), § 2, eff. Oct. 9, 2011.)

Notes of Decisions (87)
West's Ann. Cal. Civ. Code § 1747.08, CA CIVIL § 1747.08
Current with urgency legislation through Ch. 78 of 2020 Reg.Sess. Some statute sections may be more current, see credits for
details.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

APP-56

APPENDIX L

Rule 8.536. Rehearing, CA ST APPELLATE Rule 8.536

West's Annotated California Codes
California Rules of Court (Refs & Annos)
Title 8. Appellate Rules (Refs & Annos)
Division 1. Rules Relating to the Supreme Court and Courts of Appeal (Refs & Annos)
Chapter 9. Proceedings in the Supreme Court (Refs & Annos)
Cal.Rules of Court, Rule 8.536
Formerly cited as CA ST A Rule 29.5
Rule 8.536. Rehearing
Currentness
(a) Power to order rehearing
The Supreme Court may order rehearing as provided in rule 8.268(a).
(b) Petition and answer
A petition for rehearing and any answer must comply with rule 8.268(b)(1) and (3). Any answer to the petition must be served
and filed within eight days after the petition is filed. Before the Supreme Court decision is final and for good cause, the Chief
Justice may relieve a party from a failure to file a timely petition or answer.
(c) Extension of time
The time for granting or denying a petition for rehearing in the Supreme Court may be extended under rule 8.532(b)(1)(B). If
the court does not rule on the petition before the decision is final, the petition is deemed denied.
(d) Determination of petition
An order granting a rehearing must be signed by at least four justices; an order denying rehearing may be signed by the Chief
Justice alone.
(e) Effect of granting rehearing
An order granting a rehearing vacates the decision and any opinion filed in the case and sets the cause at large in the Supreme
Court.
Credits
(Formerly Rule 29.5, adopted, eff. Jan. 1, 2003. As amended, eff. Jan. 1, 2004. Renumbered Rule 8.536 and amended, eff.
Jan. 1, 2007.)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

APP-57

APPENDIX L

Rule 8.536. Rehearing, CA ST APPELLATE Rule 8.536

Notes of Decisions (51)
Cal. Rules of Court, Rule 8.536, CA ST APPELLATE Rule 8.536
California Rules of Court, California Rules of Professional Conduct, and California Code of Judicial Ethics are current with
amendments received through June 15, 2020. California Supreme Court, California Courts of Appeal, Guidelines for the
Commission of Judicial Appointments, Commission on Judicial Performance, and all other Rules of the State Bar of California
are current with amendments received through June 15, 2020.
End of Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

APP-58

